App. 1
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 16-4351
-----------------------------------------------------------------------

ALANDA FORREST,
Appellant
v.
KEVIN PARRY, PHM; Camden City Police Officer;
JASON STETSER, PHM; Camden City Police Officer;
CITY OF CAMDEN; CITY OF CAMDEN
DEPARTMENT OF PUBLIC SAFETY; WARREN
FAULK; PAULA DOW; DEPARTMENT OF THE
TREASURY, State of New Jersey; JOHN DOES I-IV
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civ. Action No. 1-09-cv-01555)
District Judge: Honorable Robert B. Kugler
-----------------------------------------------------------------------

Argued November 15, 2018
Before: GREENAWAY, JR., BIBAS, and FUENTES,
Circuit Judges.
(Filed: July 10, 2019)
-----------------------------------------------------------------------

App. 2
Elizabeth A. Rose
[ARGUED]
Sullivan & Cromwell
1700 New York Avenue, N.W.,
Suite 700
Washington, DC 2006
Counsel for Appellant
John C. Eastlack, Jr.
Daniel E. Rybeck,
[ARGUED]
Georgios Farmakis
Weir & Partners
20 Brace Road
Suite 200
Cherry Hill, NJ 08034
Lilia Londar
[ARGUED]
Weir & Partners
215 Fries Mill Road
2nd Floor
Turnersville, NJ 08012
Counsel for Appellee
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

GREENAWAY, JR., Circuit Judge.
In Beck v. City of Pittsburgh, we were faced with
what we deemed “a question of considerable interest in
[a] period of alleged rising police brutality in major cities across the country”—what is sufficient evidence
from which a jury can infer that a municipality
adopted a custom of permitting its police officers to use
excessive force? 89 F.3d 966, 967 (3d Cir. 1996). More

App. 3
than two decades later, the interest and allegations
persist, and, as it would appear, so does the question.
The evidence in this case demonstrates that the
Internal Affairs Unit (“Internal Affairs”) of the sincedisbanded Camden Police Department was woefully
deficient in investigating civilian complaints about officer misconduct. Citing Beck, the District Court found
this to be sufficient. However, the Court narrowed the
case to only this evidence, and, as a result, did not
consider its significance when combined with the nonInternal Affairs-related deficiencies in Camden’s
supervision and training of its police officers. This occurred in two phases: first, the District Court unilaterally divided Appellant, Alanda Forrest’s 42 U.S.C.
§ 1983 municipal liability claim into three theories, labeled failure to supervise through Internal Affairs,
failure to supervise, and failure to train, and, second,
it then associated the evidence pertaining to the deficiencies in Internal Affairs to only the first theory.
Forrest argues that this resulted in errors at various stages. At summary judgment, it resulted in a
grant in favor of Camden on the failure to supervise
and train theories. On the parties’ motions in limine,
the Court improperly excluded evidence that was material to the § 1983 theory that survived summary
judgment, and effectively awarded summary judgment
on the state law negligent supervision claim which it
had previously deemed triable. The jury instructions
then confused the relevant law regarding the sole surviving claim.

App. 4
We agree. The artificial line, drawn by the District
Court, between what were ostensibly theories with
largely overlapping evidence resulted in erroneous rulings as to what was relevant, as well as instructions as
to what law the jury was to apply. We will therefore
reverse those aspects of the District Court’s rulings
that resulted in error, vacate part three of the jury verdict, and remand for further proceedings consistent
with this opinion.
I.

BACKGROUND
A.

On July 1, 2008, two police officers kicked down
several doors of the residence at 1270 Morton Street,
Camden, New Jersey (“1270 Morton”). According to
Forrest, his encounter with the officers began with him
pinned between the wall and the door of the upstairs
bedroom, which had been kicked open. He heard his
acquaintance, Kennedy Blevins, twice scream, “why
you beating on me[?]” Pl.’s Resp. Br. Ex. 64-a, at
105:10–17, ECF No. 144-76. One officer asked, “where
the drugs at?” and Blevins twice responded, “I don’t
know what you talking about.” Id.
Just a few hours earlier, Forrest had just finished
work for a housing contractor at a house across the
street. He went to 1270 Morton Street to speak with
some acquaintances. He and one such acquaintance—
Shahede Green—had been on the porch for a while
when the two noticed a police car “coming down the opposite direction” on a one-way street. Id. at 96:3. It was

App. 5
around midnight at this point, so Forrest decided to
call a cab. The two went inside as Forrest waited for
the cab to arrive. While waiting, Forrest heard a number of sounds that caused him to be alarmed, all of
which culminated in what sounded like someone kicking the front door.
At the time, the house was occupied by Forrest,
Green, Blevins, and two women. One of the women was
known as Hot Dog and the other, Kesha Brown. Forrest
left Green and Hot Dog downstairs, and went upstairs
to Blevins’s room. Brown was also upstairs, in bed in
what is referred to as the “front room.” Id. at 106:22–
23. As Forrest began explaining to Blevins that the
front door had been kicked, Blevins’s bedroom door was
kicked open. Being near the bedroom door, Forrest reflexively stepped back, and was immediately covered
by the door. Forrest remained pinned between the door
and the wall, fearing that he would immediately be
shot by an officer if he came out from behind the door.
Through the opening between the door and the
wall, Forrest heard Blevins’s screams. He saw another
officer come up the stairs, and moments afterwards,
heard Brown scream. Forrest saw the officer “doing
something with his arm,” but could not make out what
the officer was doing. Id. at 107:9–11. Eventually, the
officer told Brown to go downstairs. The officer then entered Blevins’s room, where Forrest, Blevins, and the
other officer were located. One of the officers swung the
door away from Forrest, and hit him in the face, knocking him out. When Forrest regained consciousness, an
officer, later identified as Kevin Parry, was on top of

App. 6
him. Officer Parry repeatedly punched Forrest in the
face. Officer Parry then handcuffed Forrest, and the officers—Parry and Jason Stetser—dragged Forrest
down the stairs. Forrest suffered a laceration to his ear,
facial bruising, and injuries to his knees.1
Officer Parry placed Forrest in the back seat of the
supervising Sergeant’s vehicle. Officer Parry proceeded
to tell Forrest that any drugs found in the house would
be attributed to him. The Sergeant, Dan Morris, then
took Forrest to a vacant parking lot, at which point Forrest asked “I’m bleeding like crazy. Why you got me
here? Why don’t you take me to the hospital?” Pl.’s
Resp. Br. Ex. 64-b, at 134:19–21, ECF No. 144-77. Sergeant Morris allegedly ordered Forrest to shut up, and
said, “my officers don’t plant drugs on people.” Id. at
136:25–137:2. Officers Parry and Stetser arrived soon
after, and Sergeant Morris passed something to Officer
Parry.

1

Brown’s testimony corroborates the account provided by
Forrest, up to and including his being dragged down the stairs.
For example, she testified that Forrest was behind the door of
Blevins’s room when she walked into the upstairs hallway, and
that, after Forrest was hit in the face with the door, one officer
“beat him up pretty bad,” at one point “hit[ting] him in the head
with a flashlight[.]” Pl.’s Resp. Br. Ex. 44, at 44:3–6, ECF No. 14420. According to Brown, the officer hit Forrest “so many times”
that “[h]e urinated all over himself [,]” “his face was swollen,” and
“his head was full of blood.” Id. at 45:6–11. Brown further testified
that 1270 Morton belonged to her, she was renting a room to
Blevins, Green was her boyfriend, and Hot Dog was visiting on
the day of the incident. And that she was “asleep and . . . naked
from the waist down,” when an officer entered the front room with
a flashlight. Id. at 20:18–24.

App. 7
Forrest was taken to the hospital to be treated
thereafter. When the attending nurse inquired as to
what caused his injuries, he simply told her that he
tripped and fell. The officers had previously warned
that if Forrest said any more, they would charge him
with having assaulted five officers.
B.
In the police report he prepared regarding this incident, Officer Parry wrote that he had observed Forrest engaging in a hand-to-hand drug transaction on
the porch of 1270 Morton, and that Forrest initiated
the physical altercation with him and Officer Stetser.
Officer Parry testified to that version of events before
the grand jury and claimed that Forrest was in possession of 49 bags of a controlled dangerous substance.
Forrest was subsequently charged with possession of a
controlled substance, possession with intent to distribute, possession within one thousand feet of a school,
and resisting arrest.
Forrest filed a complaint with Internal Affairs on
July 21, 2008. He alleged that he was assaulted by
Officer Parry “and his partner,” which resulted in “a
cut ear [that] required stitches, [bruises] on [his]
knees, pain in [his neck], and headaches.” Def.’s Mot.
Ex. 33, ECF No. 138-4 at 59. The complaint went nowhere, so he wrote a follow-up letter two months later.
The letter reiterated the assault charges and indicated
that Internal Affairs had yet to respond to Forrest’s
initial complaint. Forrest ultimately pleaded guilty to

App. 8
possession with intent. He was sentenced to three
years and eighteen months in a New Jersey state
prison.
Forrest served eighteen months of that sentence.
He was released when Officer Parry later admitted
that he had falsified the police report regarding the incident with Forrest. Specifically, Sergeant Morris, and
Officers Parry and Stetser were three of five officers
that were charged with, and pleaded guilty to, conspiracy to deprive individuals of their civil rights. Officers
Stetser and Parry admitted to filing false reports,
planting drugs, and lying under oath in front of grand
juries, at suppression hearings, and at trials. The investigation into their activities resulted in judgments
vacated, charges dismissed, or pending indictments
forfeited in over 200 criminal cases. As to Forrest in
particular, Officer Parry admitted that he did not observe a hand-to-hand drug transaction, but falsely included that in the report he had prepared.2
2

Camden emphasizes that Forrest nonetheless admitted
that his plea was not coerced, but rather free and voluntary. Appellees’ Br. 7. In addition, at argument, it represented that there
remains a dispute as to whether Forrest “was engaged in drug
possession.” Oral Arg. Audio at 23:30–24:10. Forrest puts forth
that this may not have been the first time that he freely and voluntarily entered a guilty plea to an offense he believed he did not
commit. He testified that, in those circumstances, he does not like
“putting [his] life in somebody else’s hand” and that he would
much rather take his own chances. Pl.’s Resp. Br. Ex. 64a, at
60:15–20, ECF No. 144-76. Thus, if he thinks he is “getting another break,” he takes the plea. Id. at 60:20–22.
He attributes this approach to when he chose to go trial in a
case brought against him when he was a minor. He testified that

App. 9
C.
While still in prison, Forrest brought this action in
federal court in the District of New Jersey. By April
2015, his was one of approximately 89 lawsuits
brought against the City of Camden (“Camden”) based
on the actions of the above-referenced officers. Camden
proposed a global settlement for these suits,3 but Forrest opted out. He moved forward with his claims,
which included a municipal liability claim under 42
U.S.C. § 1983, a conspiracy claim under 42 U.S.C.
§ 1985(3), and a state law claim for negligent supervision.4 Camden moved for summary judgment on all
counts in March of 2015. Despite the breadth of

sometime in 1971, two police officers lured him from the porch of
his mother’s home in Camden, accused him of having committed
a robbery, and arrested him. He did not take a plea, but “went all
the way to court with it.” Pl.’s Resp. Br. Ex. 64, at 37:4–5, ECF
No. 144-75. He was found guilty and ended up serving seven
months in a juvenile correctional facility before he was told that
a mistake had been made. Forrest ultimately laments the situation, stating, “I think that might have damaged me.” Id. at 38:23.
3
It has no bearing on the analysis in this case, but Camden
also disbanded its police department, and formed a new one. See,
e.g., Kate Zernike, To Fight Crime, a Poor City Will Trade In Its
Police, https://www.nytimes.com/2012/09/29/nyregion/overrun-bycrime-camden-trades-in-its-police-force.html.
4
Forrest’s conspiracy claim did not survive summary judgment, and he does not mention this claim in his opening brief.
Any argument as to this claim is therefore waived. See United
States v. Pelullo, 399 F.3d 197, 222 (3d Cir. 2005) (“It is well settled that an appellant’s failure to identify or argue an issue in his
opening brief constitutes waiver of that issue on appeal.” (citations omitted)).

App. 10
Camden’s motion, its brief only mentioned Forrest’s
municipal liability claim under § 1983.
Forrest responded in kind, with a singular focus
on his § 1983 claim. His brief opposing summary judgment divided that claim into two: first, he argued that,
through its policy or custom of permitting officers to be
“essentially unsupervised,” Camden was “the moving
force” behind the constitutional deprivation of his
rights, Pl.’s Resp. Br. 30, ECF No. 144; and second, that
Camden’s failure to train and supervise their officers
constituted “a deliberate indifference to the rights of
persons those officers would come into contact with,”
id. at 34. The evidence he cited reflects the police department’s troubled history in the years leading up to
Forrest’s arrest, and is best described in six segments,
all of which pertain to Camden’s supervision and investigation of its officers.
First, the New Jersey Attorney General (“NJAG”)
had been commissioned to conduct a review of Camden’s police operations on five separate occasions prior
to Forrest’s arrest, in 1986, 1996, 1998, 2002 and, most
recently, 2006. The NJAG twice appointed the Camden
County Prosecutor to oversee the police department,
once in 1998, and the other in 2003. One of the NJAG
reports warned that Camden’s failure to commit manpower and resources to proactively managing police
misconduct would place it “in the position of failing
to adequately protect the civil rights of its citizens
and sets the stage for significant civil liability.” App.
128. More specifically, with a backlog of over 350

App. 11
uninvestigated complaints in 2002, the same report expressly cautioned:
The number of open investigations is simply
unacceptable and overwhelms whatever progress the unit may have accomplished since
our last review. . . . The failure to immediately
address the complaint backlog and, over the
longer term, ensure that the backlog does not
reoccur on a regular basis, could lead one to
conclude that the City of Camden and the police department are deliberately indifferent to
the conduct of its police officers and the civil
rights of its citizens.
App. 123 (emphases added).
Second, Camden did not address the backlog. Rather, it maintained an extensive, recurring backlog in
the years leading up to Forrest’s arrest. The backlog
was as high as 487 complaints in 2004, and 461 in
2005, and, though declining, remained in 2006 and
2007, at 205, and 175, respectively. As to complaints
regarding excessive force, which Forrest’s complaint
and follow-up letter alleged, Camden was investigating and closing a mere fraction, and sustaining an even
smaller number. Taken together, Camden sustained
about 1% (7 of 622) of the complaints alleging serious
misconduct from 2004 to 2008, consisting of excessive
force, improper arrest, improper search, and differential treatment.5

5

Excluding Forrest’s, there were six complaints lodged
against Officer Stetser in that span, including one for excessive

App. 12
Third, the evidence suggests that the investigations that were conducted were seriously deficient. A
representative example is an Internal Affairs investigative memorandum where the investigator did not
interview witnesses, but rather solely based the determination on the incident reports authored by the officers
involved. The memorandum derived from an investigation into a complaint filed against Officers Stetser and
Parry about a year before Forrest’s arrest and which
contained allegations that were nearly identical to Forrest’s. Indeed, the complainant alleged the officers
planted drugs on him. The Internal Affairs investigator concluded that this complaint was “unfounded,”
which means that the complainant was “lying, more or
less.” Pl.’s Resp. Br. Ex. 48, at 30:11–15, ECF No. 14427. This finding was premised on the incident report
prepared by Officer Parry, which stated that he and Officer Stetser observed the complainant engage in a
drug transaction in an alleyway. The investigation into
this complaint revealed that two similar complaints
had been filed against Officer Stetser, and that the incident report for both—prepared by Stetser—also
stated that each complainant was separately observed
engaging in a drug transaction.6

force, one for improper arrest, and one for harassment/improper
detainment. Officer Parry was the subject of two complaints during the same time frame, one of which does not appear on the
mechanism used to track such complaints.
6
The investigation into these complaints was prompted by a
request from the complainant’s lawyer to access the other two
complaints.

App. 13
The fourth segment is the testimony of former
high officials in the police department, including the
former Chief of Police, a former Deputy Chief, the former Supercession Executive,7 and the Sergeant who
took over Internal Affairs in 2009. Their combined testimony reflects that, in the years leading up to and including the year of Forrest’s arrest, there were
deficiencies with how the department tracked officer
whereabouts, there were no performance reviews (contrary to recommendations by the 2006 NJAG report)
and the sergeant-to-officer ratio was two to three times
more than recommended.
Specifically, John Scott Thomson (“Chief Thomson”), who became Chief of the now-defunct Camden
Police Department in 2008 and is now Chief of the
newly-established Camden County Police Department,
testified. He explained that, prior to his taking over the
department and at the time of Forrest’s arrest, the police department “relied upon what you wrote on your
log to determine where you were” and that “an officer
could [theoretically] write anything they wanted down
[, since] there just wasn’t a checks and balance (sic) on
it.” Pl.’s Resp. Br. Ex. 42-a, at 57:11–13, 65:5-8 ECF No.
144-16. The Supercession Executive testified that he
7

The NJAG appointed the Camden County Prosecutor to
“supercede the management, administration and operation” of
the police department in 2003. App. 103. The Camden County
Prosecutor later installed a Supercession Executive to, inter alia,
manage the day-to-day activities of the police department, and
represent the County Prosecutor in overseeing all department activities. The Supercession Executive was installed in 2006 and remained until 2008.

App. 14
was not aware of another major police department that
did not have a performance evaluation system. Yet despite his and the NJAG’s recommendations, Camden
failed to implement such a system throughout the entirety of his term.
Edward Hargis, who was Deputy Chief from 2004
through January of 2008, doubled down on that testimony, stating, “[a]fter [the NJAG 2006 report] was issued, we started designing a performance evaluation
[system], but then it did not become much of a concern.” Pl.’s Resp. Br. Ex. 40, at 35:15–36:17, ECF No.
144-8. Along those lines, the Sergeant who took over
Internal Affairs in 2008 testified that the officer-tosergeant ratio is supposed to be five to seven officers to
a sergeant. Yet, between 2004 and 2009, the Supercession Executive stated that “they were woefully over in
number” in some commands, with “12, 15 plus to a sergeant.” Pl.’s Resp. Br. Ex. 41-b, at 137:1–6, ECF No.
144-13.
Chief Thomson ultimately commented that one of
the most pressing problems facing the department
when he took over in 2008 was a “culture of apathy and
lethargy”—by which he meant that there were no
“mechanisms of accountability,” and, as such, “CPD
was an organization in which you could have the greatest cop in the world or the laziest cop in the world. . . .”
Pl.’s Resp. Br. Ex. 41-c, at 37:23–39:4, ECF No. 144-15.
Fifth, Officers Parry and Stetser were aware of the
alleged inadequacies in supervision. Officer Parry explained that he continued to engage in illicit behavior

App. 15
even when Sergeant Morris could no longer cover for
him as his supervisor. When asked whether he was
concerned that a Sergeant who was not a party to the
conspiracy would “discover what was going on,” Officer
Parry responded, “No. . . . Because, like I said, nobody
seemed to care.” Pl.’s Resp. Br. Ex. 68, at 36:2 to 37:7,
ECF No. 144-87. He noted that, in fact, supervision was
worse after Sergeant Morris stopped supervising him,
stating:
Because the more sergeants had to do, the
more that—you know, the more paperwork
that had to be completed for our squad, the
less they were on the street and there was no
supervision for them . . . [B]ecause before if
you were on regular patrol, if you were at a
job, a sergeant was on the street with you.
They would show up a lot of times. Sergeants
were getting so, you know, backed up with paperwork, they were really never around. . . .
These guys, like I said, they would take their
liberties because they knew that nobody was
going to be around and they had to answer no
questions.
Id. at 28:22 to 29:17. And when Sergeant Morris was
their supervisor, Officer Parry testified that he and Officer Stetser had no concern about their misconduct, as
it was very rare that a Captain or Lieutenant would
show up or review their reports. Nor did concern about
complaints being filed with Internal Affairs ever cross
their mind. Worse yet, Officer Stetser also testified
that, Lieutenant Pike, his supervisor at one point,
“most likely” knew that he was writing false reports

App. 16
and accepted them. Pl.’s Resp. Br. Ex. 54-a, at 40:16–
18, ECF No. 144-43.
Sixth, Officer Vautier, a fellow officer at the time,
testified about two incidents in which Officer Stetser
engaged in questionable behavior in front of his superiors without reprimand. The first took place in Spring
of 2007 when Officer Stetser put drugs in a Lieutenant’s bag in front of the entire squad as a prank. According to the officer, the Lieutenant discovered this
and did nothing. The officer also testified that he reported this, as well as that Officer Stetser bragged
about passing out drugs at parties, to a Sergeant
within Internal Affairs. The Sergeant responded by
confirming that there had been other complaints about
Officer Stetser’s passing out drugs at parties, but never
wrote anything down and kept the report off the record. The second incident was in May of 2007, and involved a Sergeant who conducted an integrity test on
Officer Stetser, whereby he placed a precise amount of
an illegal substance in a bag and handed it to Officer
Stetser to turn it in before the end of the day. Officer
Stetser failed—he was given 45 bags and only turned
in 30.
*

*

*

Camden prevailed. The District Court granted
partial summary judgment. It divided Forrest’s § 1983
claim into three theories that it devised. Each theory
was then associated with a specific subset of the above
segments, without consideration of the segments’ combined impact on any particular theory. The result is

App. 17
that, along with Forrest’s state law negligent supervision claim, only one of the theories was considered to
have the evidentiary support necessary to survive
summary judgment. This surviving theory was then
narrowly framed as a failure to supervise through the
Internal Affairs process, which again reflected the
Court’s view that supervision-related deficiencies that
were apparent elsewhere were not relevant to the incident with Forrest.
The jury returned a verdict in favor of Camden on
the § 1983 theory that was presented to them. In parts
one and two of the verdict form, it unanimously found
that Officers Stetser and Parry violated Forrest’s
Fourth Amendment right to be free from excessive
force and to be free from false arrest. But, in part three,
the jury found that Forrest had not proved that these
deprivations of his constitutional right resulted from
Camden’s actions.
Forrest appealed.
II.

DISCUSSION8

Forrest challenges the District Court’s rulings at
various stages of the underlying proceedings. At summary judgment, he argues that the District Court
erred in granting Camden’s motion on any portion of
his § 1983 claim. Regarding the Court’s rulings at the
8

The District Court had jurisdiction under 28 U.S.C.
§§ 1331, 1367(a); we have jurisdiction over appeals from all final
decisions by the District Court under 28 U.S.C. § 1291.

App. 18
motions in limine hearing, he argues that it effectively
awarded summary judgment on his state law negligent
supervision claim, and improperly excluded evidence
that was material to the remaining portion of his
§ 1983 claim. Lastly, Forrest contends that the Court
issued jury instructions that were erroneous and prejudicial as to the § 1983 claim.
We agree that there were several errors below, beginning with some of the District Court’s rulings at
summary judgment. Indeed, the Court unilaterally divided Forrest’s claim into three theories it devised—
failure to supervise through the Internal Affairs process, failure to supervise, and failure to train. To support that division, the District Court considered the
Internal Affairs-related evidence—consisting of segments one through four—as only supporting the first
theory. In turn, the first theory was the only that survived summary judgment. We conclude that aspects of
all three theories should survive when the evidence,
consisting of segments one through six, is considered
in its entirety. Moreover, the District Court’s subsequent efforts to exclude the segments that supported
the theories that did not survive summary judgment
resulted in erroneous evidentiary rulings as to what
was relevant, as well as incorrect instructions as to
what claims the jury was required to consider and the
requisite legal elements. We will therefore reverse the
portions of the District Court’s summary judgment and
evidentiary rulings that resulted in error, vacate part
three of the verdict rendered by the jury, and remand
for further proceedings.

App. 19
A.

Summary Judgment
1.

Standard

Our review of a district court’s decision at summary judgment is plenary, and we apply the same
standard as the District Court. See Halsey v. Pfeiffer,
750 F.3d 273, 287 (3d Cir. 2014). We determine whether
the moving party has established that there is no genuine dispute of material fact and is entitled to judgment as a matter of law. See Wharton v. Danberg, 854
F.3d 234, 241 (3d Cir. 2017) (citing Fed. R. Civ. P. 56(a)).
We view all facts in the light most favorable to the nonmoving party and draw all inferences in that party’s
favor. Id. The elements of the underlying claim are central to our determination, as a fact is only material if
it might affect the outcome of the suit under the governing law. See Scheidemantle v. Slippery Rock Univ.
State Sys. of Higher Educ., 470 F.3d 535, 538 (3d Cir.
2006). We therefore begin our discussion with an examination of the underlying elements of the species of
§ 1983 claim that Forrest presented to the District
Court.
As we recently reiterated, a § 1983 claim against
a municipality may proceed in two ways. Estate of Roman v. City of Newark, 914 F.3d 789, 798–99 (3d Cir.
2019). A plaintiff may put forth that an unconstitutional policy or custom of the municipality led to his or
her injuries, id. at 798 (citing Monell v. Dep’t of Soc.
Servs., 436 U.S. 658, 694 (1978)), or that they were
caused by a failure or inadequacy by the municipality
that “reflects a deliberate or conscious choice,” see id.

App. 20
(internal quotation marks omitted) (quoting Brown v.
Muhlenberg Twp., 269 F.3d 205, 215 (3d Cir. 2001)).
The latter avenue arose in the failure-to-train context,
but applies to other failures and inadequacies by municipalities, including those related to supervision and
discipline of its police officers. Id. at 798–99 (“[Plaintiff ] has not pled a municipal policy . . . [but] has . . .
adequately pled that the City failed to train, supervise,
and discipline its police officers.”).
Plaintiffs that proceed under a municipal policy
or custom theory must make showings that are not
required of those who proceed under a failure or inadequacy theory, and vice versa. Notably, an unconstitutional municipal policy or custom is necessary for the
former theory, but not for the latter, failure or inadequacy theory. Id. at 798 (“[F]or failure-to-train claims
. . . [,] a plaintiff need not allege an unconstitutional
policy.”) (citing Reitz v. County of Bucks, 125 F.3d 139,
145 (3d Cir. 1997)). This difference can be significant
because a plaintiff presenting an unconstitutional policy must point to an official proclamation, policy or
edict by a decisionmaker possessing final authority to
establish municipal policy on the relevant subject.
And, if alleging a custom, the plaintiff must evince a
given course of conduct so well-settled and permanent
as to virtually constitute law. Id. On the other hand,
one whose claim is predicated on a failure or inadequacy has the separate, but equally demanding requirement of demonstrating a failure or inadequacy
amounting to deliberate indifference on the part of the
municipality. See id. This consists of a showing as to

App. 21
whether (1) municipal policymakers know that employees will confront a particular situation, (2) the situation involves a difficult choice or a history of
employees mishandling, and (3) the wrong choice by an
employee will frequently cause deprivation of constitutional rights. Carter v. City of Philadelphia, 181 F.3d
339, 357 (3d Cir. 1999).
Although we have acknowledged the close relationship between policy-and-custom claims and failure-or-inadequacy claims, Barkes v. First Corr. Med.,
766 F.3d 307, 316–17 (3d Cir. 2014), the avenues remain distinct: a plaintiff alleging that a policy or custom led to his or her injuries must be referring to an
unconstitutional policy or custom, and a plaintiff alleging failure-to-supervise, train, or discipline must show
that said failure amounts to deliberate indifference to
the constitutional rights of those affected. That is not
to say that the plaintiffs cannot be one and the same,
with claims sounding in both. They can. See id. at 798–
99 (“[Plaintiff ] has sufficiently alleged a custom of warrantless or nonconsensual searches . . . [and] has also
adequately pled that the City failed to train, supervise,
and discipline its officers.”).
2.

Analysis

With that understanding, recall that, in his brief
opposing summary judgment, Forrest purported to divide his § 1983 municipal liability claim into two theories. One alleged that a policy or custom of “essentially
unsupervised” officers was the “moving force” behind

App. 22
the constitutional deprivation of his rights. Pl.’s Resp.
Br. 30, ECF No. 144. The other alleged that Camden’s
failure to train and supervise their officers constituted
deliberate indifference to the rights of individuals with
whom the officers would come into contact. Id. at 34.
The District Court did not adopt that framing, and
instead further divided the claim into three separate
theories. It described them as, first, “that [Internal Affairs] was inadequate and provided no accountability
for Stetser and Parry[,]” second, “that the City’s supervisory structure and inadequate monitoring system
left Stetser and Parry unsupervised[,]” and third, “that
Stetser and Parry received inadequate training because training about how to recognize and eradicate
excessive force and misconduct was necessary.” App. 14
(internal quotation marks omitted). Further, the District Court enunciated the legal requirements for all
three theories as that Forrest had to demonstrate a
policy or custom as to the alleged failures or inadequacies and that said policy or custom amounted to deliberate indifference.9

9

In setting forth the law, the District Court purports to rely
on our decision in Beck. See App. 7 (citing Beck, 89 F.3d at 972,
for the proposition that, “[w]hile the Supreme Court originally
fashioned ‘the deliberate indifference’ doctrine in the context of a
city’s alleged failure to train its police officers, the Third Circuit
has since adopted this standard in other policy and custom situations.” (emphasis added)). The portion of Beck cited by District
Court quotes language from our decision in Simmons v. City of
Philadelphia, 947 F.2d 1042 (3d Cir. 1991), which references a
policy or custom of deliberate indifference. However, contrary to
what the District Court’s opinion suggests, neither Beck nor

App. 23
Forrest does not challenge the District Court’s ruling regarding the first theory—that a policy or custom
of inadequate supervision through Internal Affairs
amounted to deliberate indifference—as it survived
summary judgment. But he does take issue with how
he was allowed to proceed on that claim. We take up
those challenges in subsections (B), (C), and (D). We
now turn our focus to Forrest’s challenges to the District Court’s ruling regarding his failure-to-supervise
and failure-to-train theories.
At the outset, we emphasize that, properly considered, there are two ways in which Forrest’s § 1983
claim against Camden may have proceeded: first, that
Camden’s policy or custom of permitting excessive
force, false arrest, or other constitutional violations led
to Forrest’s injuries; and/or second, that Camden’s failure to supervise, discipline, or train its officers
amounted to deliberate indifference to the rights of the
individuals with whom those officers would come into
contact. As a result, the bare notion that a custom or
policy of “essentially unsupervised” officers led to Forrest’s injury has no basis in law. See Pl.’s Resp. Br. 30,
ECF No. 144. We therefore consider his claim as
Simmons established a species of § 1983 municipal liability predicated on the existence of an unconstitutional policy or custom of
or amounting to deliberate indifference. Beck involved a claim regarding an unconstitutional policy or custom of tacitly authorizing police officers to use excessive force in violation of the Fourth
Amendment. Beck, 89 F.3d at 968. Similarly, Simmons involved
an alleged policy that violated the Eighth Amendment—that is,
one of “deliberate indifference to the medical needs of intoxicated
and potentially suicidal detainees.” Simmons, 946 F.2d at 1064.

App. 24
sounding in the latter—that Camden’s failure to supervise, investigate, and train its officers amounted to deliberate indifference.
Despite incorrectly announcing that Forrest had
to demonstrate an unconstitutional policy or custom of,
or amounting to, deliberate indifference, the District
Court treated Forrest’s claim as we will: it properly
conducted a deliberate indifference analysis for each
alleged failure on the part of Camden. However, it divided up the quantum of evidence to the detriment of
Forrest’s failure-to-supervise theory and adopted an
unduly narrow view of the evidence supporting Forrest’s failure-to-train theory.
Per the evidentiary division, the lion’s share of the
evidence we laid out in Section I.C.—four out of the six
segments—was associated with only the first theory,
which the Court labeled “Failure to Supervise, Investigate, and Discipline.” App. 16. This consisted of the evidence that Internal Affairs had substantial backlogs
and was not adequately investigating complaints in
the years leading up to Forrest’s arrest, as well as the
evidence of a lack of adequate supervision based on the
absence of a system of progressive discipline and any
mechanism to track officer performance.
Despite its overlap with the first theory, the second
theory, labeled “Failure to Supervise,” App. 21, was limited to the evidence pertaining to Camden’s failure to
track officer whereabouts, “CPD’s supervisory structure, and generally inadequate supervision of its officers’ day-to-day activities. . . .” App. 21–22. The District

App. 25
Court did not mention the evidence suggesting that
the particular officers at issue engaged in illicit conduct knowing that that [sic] they were not being supervised, and the testimony regarding the two incidents
that should have alerted the officers’ superiors but did
not. Nor did the Court consider how, if taken together,
the quantum of evidence laid out in Section I.C. supported a failure-to-supervise theory. Camden’s motion
was ultimately denied as to the “Failure to Supervise,
Investigate, and Discipline” theory, but granted as to
the “Failure to Supervise” theory. App. 21–22.
A different, yet equally problematic narrowing occurred with regard to the third theory, labeled “Failure
to Train.” App. 22. The District Court construed this
theory as merely focusing on the inadequacies in Camden’s training program, as it pertained to Officers Stetser and Parry. See App. 22–23 (stating, “Plaintiff has
not adequately demonstrated that the training Parry
and Stetser received was so deficient as to reflect
[Camden]’s deliberate indifference to constitutional
rights.”). It then granted Camden’s motion.
We will reverse the District Court’s grant of summary judgment on the failure to supervise theory, and,
to the extent that it overlooked Forrest’s allegations regarding the training supervisors received, also its ruling on the failure to train theory.

App. 26
a. Failure to Supervise
The evidence presented by Forrest may convince a
reasonable jury that Camden’s failure to supervise and
discipline its officers amounted to deliberate indifference to the rights of individuals with whom those officers would come into contact. The record would support
a finding that Camden’s policymakers knew that their
officers would require supervision, that there was a
history of officer supervision being mishandled, and
that, in the absence of such supervision, constitutional
violations were likely to result. Indeed, the evidence
suggesting that the particular officers at issue engaged
in illicit conduct—often consisting of false arrest and
excessive force—knowing that that [sic] they were not
being supervised, and that there were a few incidents
that should have alerted the officers’ superiors, but did
not, is significant. Those evidentiary points combined
with the NJAG reports, the evidence regarding Internal Affairs’ complaint backlog and other deficiencies,
and the testimonies offered by Chief Thomson, the
Supercession Executive, former Deputy Chief Hargis,
and the Sergeant who took over Internal Affairs in
2009, is sufficient to withstand a motion for summary
judgment.
Camden argues that Forrest cannot demonstrate
a nexus between the deprivation he suffered and Camden’s conduct because, in the months leading up to
Forrest’s arrest, its hands were tied. To support that
argument, it cites its internal processes: when Internal
Affairs received a complaint, it forwarded that complaint to the Camden County Prosecutor’s Office

App. 27
(“CCPO”), and took no further action. Id. at 8. It left
the investigation entirely up to the CCPO. Id. Camden
asserts that this process was in effect with respect to
Officers Stetser and Parry in 2008, and, as such, Internal Affairs’s investigations of those officers were
stayed up to and through the time of Forrest’s arrest.
Id. at 8.
We reject this argument for two reasons. First, as
the District Court pointed out, Camden’s own submission demonstrates that the CCPO did not take over investigations into Officers Stetser and Parry until
September 16, 2008, well over two months after Forrest’s arrest. See Def.’s Mot. Ex. 29, ECF No. 138-4 at
13. Second, even assuming that was not the case, there
is a genuine dispute of material fact as to whether Internal Affairs’s investigation would have resulted in
Forrest’s arrest (and the surrounding incident) being
prevented. Indeed, even when Camden did investigate
complaints against these officers, its investigation
amounted to a review of the false reports they prepared, and thus resulted in no disciplinary action
against the officers.
We will therefore reverse the District Court’s decision granting summary judgment as to the § 1983
claim that Camden’s failure to supervise its officers
amounted to deliberate indifference to the rights of individuals with whom those officers would come into
contact.

App. 28
b. Failure to Train
As to the failure to train theory, Forrest’s arguments to the District Court did not only focus on the
training Officers Stetser and Parry received, but also
the training that supervising officers received. Pl.’s
Resp. Br. 35 (arguing that “training session[s] for officers, supervisors and command officers about how to
recognize and eradicate excessive force and misconduct [are] necessary”). Forrest reiterates the same twopart argument on appeal: that “the training provided
to Stetser and Parry . . . was inadequate” and “[s]imilarly, training for supervisors was deficient, as sergeants did not receive training geared toward officer
discipline.” Appellant’s Op. Br. 40.
We agree with the District Court that evidence regarding the training that officers received is insufficient as a matter of law. The alleged deficiency in a
training program must be closely related to the alleged
constitutional injury because “[i]n virtually every instance where a person has had his or her constitutional
rights violated by a city employee, [said] plaintiff will
be able to point to something the city ‘could have done’
to prevent the unfortunate incident.” City of Canton,
Ohio v. Harris, 489 U.S. 378, 392 (1989) (citation omitted).
Here, even if we accept that, based on the sheer
volume of complaints, Camden had to have known that
it had a problem with officers violating the constitutional rights of citizens, the link between that and the
alleged deficiencies in the training program is simply

App. 29
too tenuous. The officers knew that their conduct was
criminal, and, as the encounter in this case shows, used
their authority to pressure victims to refrain from immediately reporting their activities. As a result, there
is no proof from which to infer that implementing the
changes to the training program that Forrest suggests
would have made any difference. Lastly, in terms of
awareness, the testimonial evidence from higher officials point to supervision and accountability as the
critical issues, not training.
The opposite is true of the evidence regarding the
inadequacies in training that supervisors received.
Camden policymakers knew or should have known
that supervisor-level officers would be confronted with
officer misconduct, whether first hand or via complaints and reports from others, and that the wrong
choice—failure to report or admonish—would lead to
the sort of behavior that occurred here: officers whose
behavior caused the deprivation of constitutional
rights, but who had no reason to change that behavior.
And, although the situation does not necessarily involve a difficult choice, the evidence here demonstrates
a genuine dispute of material fact as to whether supervisors had a history of mishandling this choice.
Indeed, the sheer volume of complaints from outsiders, coupled with the absence of any internal response may lead a reasonable jury to conclude that
Camden was aware of supervisors mishandling or being unable to handle their duties. This is even more
pronounced when one examines the testimonies of
higher officials who expressed great concern that

App. 30
officers were not being adequately supervised, and
called for various measures to address that reality,
including a formal performance evaluation system and
a reduction in the supervisor-to-officer ratio. See also
App. 128 (warning that Camden’s failure to commit
manpower and resources to proactively managing police misconduct would place it “in the position of failing
to adequately protect the civil rights of its citizens and
set the stage for significant civil liability.”).
The call for these measures was warranted and
the need for training apparent. The testimony provided by Officers Stetser and Parry reflects that they
were aware that supervision was lacking, whether coconspirator Sergeant Morris covered for them or not.
Officer Stetser, in particular, explained that one of his
supervisors “most likely” knew that he was writing
false reports, and accepted them. Pl.’s Resp. Br. Ex.
54-a at 40:16–18, ECF No. 144-43. The record further
provides ample basis for this confidence. Recall that
Officer Stetser failed an integrity test administered by
a supervising officer, and pranked another by planting
drugs in the supervising officer’s bag. When this was
reported to a Sergeant in Internal Affairs, the Sergeant merely responded with his own account of similar behavior by Officer Stetser in other contexts. See
Supra Section I.C., Segment Six.
The foregoing demonstrates Camden’s policymakers were aware that Camden needed a large shake up
in its supervisory regime. It also raises significant
questions as to whether Camden’s supervisor-level officers were adequately trained on how to discipline and

App. 31
combat officer misconduct when it was brought to their
attention, including the kinds of misconduct—false arrest and excessive force—that led to Forrest’s injuries.
Thus, while we agree that Forrest’s claim regarding
the adequacy of the training officers received fails on
causation grounds, we conclude that a genuine dispute
of material fact exists as to whether the need for more
or different training for supervisors was obvious, and
the failure to provide that was very likely to result in
a violation of constitutional rights. We will therefore
reverse the District Court’s summary judgment ruling
as to this iteration of Forrest’s § 1983 claim.
B.

Motions in Limine

Forrest presents two challenges to the District
Court’s decisions on the motions in limine. He argues
that the District Court improperly granted summary
judgment on his state law negligent supervision claim,
and excluded evidence that was material to his surviving § 1983 claim. We agree—the District Court sua
sponte granted summary judgment without providing
the procedural safeguards the Federal Rules of Civil
Procedure require before judgment on the merits can
be granted. We also agree that the Court’s evidentiary
rulings constituted an abuse of discretion, as they
stemmed from an incorrect, narrow view of Forrest’s
surviving § 1983 claim.

App. 32
1.

State Law Negligent Supervision Claim

The District Court ruled that Forrest’s state law
negligent supervision claim survived summary judgment. But there is no mention of the claim for the remainder of the proceedings, including at trial. On
appeal, Forrest contends that the District Court effectively granted summary judgment on that claim at the
motions-in-limine hearing. Appellant Op. Br. 42–43.
He argues that this is clear from District Court’s opening remark at that hearing that the only remaining
claim was the failure to supervise through Internal Affairs. Id. at 43. Camden counters that Forrest waived
this issue by failing to object when the District Court
made that remark. Appellee Resp. Br. 40. We first address the District Court’s remark and its effect, and
then the question of plain error.
a. The District Court’s Remark
It is well-settled that district courts may grant
summary judgment sua sponte, so long as the losing
party is given notice when summary judgment is being
contemplated. See Fed. R. Civ. P. 56(f ) (permitting a
sua sponte grant “[a]fter giving notice and a reasonable
time to respond . . . ”); Gibson v. Mayor & Council of
City of Wilmington, 355 F.3d 215, 222 (3d Cir. 2004)
(citing Celotex Corp. v. Catrett, 477 U.S. 317, 326
(1986)); see also Otis Elevator Co. v. George Washington
Hotel Corp., 27 F.3d 903, 910 (3d Cir. 1994). The purpose is to give the losing party the opportunity to marshal all the evidence that would be used to oppose

App. 33
summary judgment. Gibson, 355 F.3d at 224. Along
those lines, although motions in limine are not designed to eliminate claims or theories, see Bradley v.
Pittsburgh Bd. of Educ., 913 F.2d 1064, 1069 (3d Cir.
1990), the Federal Rules of Civil Procedure do not prohibit a grant of summary judgment when said motions
have been filed. Whenever the summary judgment ruling is made, the court must provide the parties with
adequate notice and an opportunity to oppose. Id. at
1069–70 (finding notice inadequate where neither the
parties nor the court suggested the possibility of trial
not going forward).
In the past, we have determined that a motion in
limine resulted in a sua sponte grant of summary judgment based on an express statement by the district
court, see Brobst v. Columbus Servs. Int’l, 761 F.2d 148,
154 (3d Cir. 1985) (quoting the district court as having
stated, “The court finds, as a matter of law, that . . . ”)
(emphasis added), or, indirectly, by way of the court
having eliminated the evidentiary basis for a claim, see
Bradley, 913 F.2d at 1069–70.
The situation here is different. The District Court
did not make an express statement, at least not one
outright purporting to grant summary judgment. Nor
did it necessarily eliminate the evidentiary basis for
Forrest’s state law negligent supervision claim, given
the evidentiary overlap with his surviving § 1983
claim. Instead, Forrest’s argument is premised on the
District Court’s lone remark that, “This is the only
claim left in the case, the failure to supervise through
the Internal Affairs process.” App. 345. But these are

App. 34
differences without a distinction. The principle remains: whether expressly or in effect, a district court
may not grant summary judgment without providing
the losing party notice, or a notice-equivalent, and an
opportunity to oppose. See Gibson, 355 F.3d at 223 (citing Otis, 27 F.3d at 910).
Thus, as we ordinarily would, we examine whether
the Court granted summary judgment on Forrest’s
state law negligence claim, and, if so, whether Forrest
had adequate notice and an opportunity to oppose.
By itself, the District Court’s remark that “the failure to supervise through the Internal Affairs process”
was “the only claim left in the case” is ambiguous, at
best. By the time the District Court makes this statement, the case had been narrowed to two claims: a
§ 1983 claim on the theory that “[Camden]’s Internal
Affairs system was inadequate and provided no accountability . . . [,]” App. 14; and a state law negligent
supervision claim “on the theory that the internal affairs department provided inadequate supervision of
its officers,” App. 24. Thus, a remark that the only remaining claim is the failure to supervise through Internal Affairs leads one to ask: is it the § 1983 or the
state law? The answer can be found in the remainder
of the Court’s other statements at the motions-inlimine hearing, as well as the jury instructions and
verdict form.
The remainder of the Court’s motions-in-limine
statements demonstrate that the remark at issue was
referring to the § 1983 claim as the only remaining

App. 35
claim. Specifically, in the moments before making the
remark Forrest cites, the District Court stated, “I’m going to start with the order in which [the motions] were
filed on the docket. And the first is number 164, which
is defendant’s motion to bar evidence unrelated to the
Monell claim.” App. 345. The Court then proceeded to
explain that “there are no training claims left in the
case,” and, having narrowed the surviving municipal
liability claim to the theory involving the inadequate
supervision provided through Internal Affairs, stated,
“This is the only claim left in the case, the failure to
supervise through the Internal Affairs process.” Id.
The jury instructions and verdict form further
demonstrate that Forrest’s state law claim was not the
claim being referred to as the only one remaining. This
claim is absent from the portion of the jury instructions that sets forth what the jury was to consider. Instead, the jury is instructed that, “[t]he plaintiff,
Alanda Forrest, is suing under Section 1983. . . .” App.
456. As to the verdict form, the portion identifying the
claims against Camden singularly asks,
“Has plaintiff proven by a preponderance of
the evidence that the deprivation of Alanda
Forrest’s constitutional right(s) was the proximate result of a well-settled policy of inadequate supervision by the City of Camden of its
officers, including Jason Stetser and/or Kevin
Parry?”
App. 442.

App. 36
This singular ask is particularly significant because, as the District Court noted at summary judgment, Forrest’s state law negligent supervision claim
was an independent claim, with distinct elements. See
App. 24. Notably, the claim is not limited to injuries
arising from constitutional violations, and neither
requires that the plaintiff ’s injuries result from a wellsettled policy or custom nor a showing of deliberate
indifference. Rather, the consensus is that a negligent
supervision claim under New Jersey law only requires
a relatively straightforward negligence showing—that
is, that the employer knew or had reason to know the
employee exhibited dangerous characteristics, that
there was a reasonable foreseeability of harm to others, and that the negligent supervision was the proximate cause of the injuries. Panarello v. City of
Vineland, 160 F. Supp. 3d 734, 769 (D.N.J. 2016); see
also Smith v. Harrah’s Casino Resort of Atl. City, 2013
WL 6508406, at *3 (N.J. Super. Ct. App. Div. 2013)
(“Several jurisdictions have held that a claim of negligent supervision requires proof of the same elements
recited by our Supreme Court . . . with respect to a
claim of negligent hiring.”).
With all that in view, we conclude the District
Court’s statement amounted to a sua sponte grant of
summary judgment as to Forrest’s state law negligent
supervision claim.
We also conclude that the Court did so without
providing Forrest with notice and an opportunity to respond. Indeed, prior to its sua sponte grant, the Court
held that Forrest’s state law negligent supervision

App. 37
claim would be tried, and had not made any interim
rulings that would contradict that. See App. 23–24. So,
as of the time of the Court’s remark, Forrest had no
reason to believe that this claim was at risk of an adverse summary judgment ruling.10
b. Plain Error
Camden argues that even if the District Court’s
grant constituted error, we should not reverse because
Forrest waived this issue by failing to object. Forrest
counters that the failure to object can be excused because the issue qualifies under our plain error doctrine. We agree with Forrest.
Where a timely objection is not raised below, we
reverse only where the grant constitutes plain error.
See Gibson, 355 F.3d at 225 n.4 (citing United States v.
Knight, 266 F.3d 203, 206 (3d Cir. 2001)). In this context, this is true where we find (1) an error, (2) that
is plain—i.e., clear and obvious—and (3) the error
10

Forrest points to the Joint Pre-Trial Order as evidence
that he had reason to believe that his state law negligence claim
would be tried. However, the document is, at best, ambiguous on
this point. Under a subsection labeled “PLAINTIFF’S LEGAL ISSUES:” it lists the issue of whether “[Camden was] negligent in
failing to adequately supervise and monitor the actions of its police officers.” Joint Pretrial Order 35, ECF No. 161. But, like the
District Court’s remark, it does not specify whether this is referring to the state law negligent supervision claim or Forrest’s
§ 1983 claim. For our purposes, it is enough that the District
Court’s summary judgment opinion indicated that this claim
would be tried, and the record is devoid of any interim ruling or
reference that suggested otherwise.

App. 38
affected the defendant’s substantial rights. See Walden
v. Georgia-Pacific Corp., 126 F.3d 506, 522 (3d Cir.
1997); see also Selkridge v. United of Omaha Life Ins.
Co., 360 F.3d 155, 166 (3d Cir. 2004). Even then, we exercise our power to reverse “sparingly”—that is, only
for “serious and flagrant” errors jeopardizing “the integrity of the proceeding.” Pennsylvania Environmental Defense Foundation v. Canon-McMillan School
Dist., 152 F.3d 228, 234 (3d Cir. 1998).
The District Court’s sua sponte grant constituted
such an error. It is well established that noncompliance
with the notice provisions of the Federal Rules deprives a court of the authority to grant summary judgment. See Fed. R. Civ. P. 56(f ) (permitting a sua sponte
grant only “[a]fter giving notice and a reasonable time
to respond . . . ”). And, as a result of the District Court’s
noncompliance, the plaintiff was deprived of a jury
trial on a claim that the Court previously deemed triable—in other words, a designation that a reasonable
jury could find in his favor—despite there being no
change in the quantum of evidence between the designation and subsequent deprivation.
The seriousness of this error cannot be overstated:
it not only deprived a litigant of his day in court, but it
effectively designated a matter for the jury and then
stepped into the jury’s province to decide the same
matter. All of this occurred without any explanation,
and in a procedural setting that serves an entirely different function: on the parties’ motions in limine, rather than on a dispositive motion. See Gibson, 355 F.3d
at 224 (issuing a cautionary note that “the sua sponte

App. 39
grant of summary judgment, without giving notice to
the parties, is not the preferred method by which to
dispose of claims . . . because [courts] run the risk of
unduly prejudicing the parties . . . [and] such grants
. . . can have serious, if unintended, consequences.”).
We will reverse and remand, with the instruction
that the claim should go to the jury unless the District
Court seeks to grant summary judgment on it. If the
Court so seeks, it may grant summary judgment only
after providing adequate notice and opportunity for
Forrest to oppose.
2.

The District Court’s Evidentiary Rulings

A ruling on the admissibility of evidence is reviewed for abuse of discretion. Forrest v. Beloit Corp.,
424 F.3d 344, 349 (3d Cir. 2005). There is an abuse of
discretion if the district court’s decision “rests upon a
clearly erroneous finding of fact, errant conclusion of
law, or an improper application of law to fact.” Id.
(quoting Oddi v. Ford Motor Co., 234 F.3d 136, 146 (3d
Cir. 2000)).
The District Court excluded evidence of conduct
that (a) post-dated Forrest’s arrest,11 (b) was not
11

In a footnote, Forrest also argues that the District Court’s
exclusion of evidence that pre-dated his arrest was improper. Appellant’s Br. 45 n.13. This evidence included the 2002 NJAG report which warned that the failure to immediately address the
complaint backlog could lead to an adverse finding on deliberate
indifference. It also included complaints regarding Sergeant Morris, who supervised Officers Stetser and Parry during Forrest’s
arrest. For all the same reasons we set forth below, the exclusion

App. 40
specific to Internal Affairs, and (c) related to other
wrongdoing by Officers Stetser and Parry. It found this
evidence inadmissible on the grounds that it was insufficiently related to the theory that Camden failed to
supervise through the Internal Affairs process.
Under the Federal Rules, relevant evidence is generally admissible, and irrelevant evidence is not. Fed.
R. Ev. 402. Yet the bar for what constitutes relevant
evidence is low. See, e.g., Failla v. City of Passaic, 146
F.3d 149, 159 (3d Cir. 1998) (“The test of relevance under the Federal Rules of Evidence is low.”); In re Paoli
R.R. Yard PCB Litig., 35 F.3d 717, 783 (3d Cir. 1994)
(describing the Federal Rules as having a “low threshold of relevancy”). The test is whether the evidence has
“any tendency to make a fact more or less probable
than it would be without the evidence,” where “the fact
is of consequence in determining the action.” Fed. R.
Ev. 401 (emphasis added).12

of that evidence constituted an abuse of discretion—the evidence
is highly relevant to determining deliberate indifference on the
part of Camden.
12
Camden appears to suggest that the evidence was properly
excluded under Federal Rule of Evidence 403, which, in broad
terms, permits the exclusion of relevant evidence if its probative
value is substantially outweighed by its prejudicial effect. However, the District Court excluded the evidence at issue on Rule
401, relevancy grounds. In addition, Camden does not (and we
cannot) identify what prejudice, if any, would result from admitting the evidence at issue. We thus construe Camden’s arguments
as speaking to relevancy alone and proceed accordingly. See Appellee Br. i. (characterizing the District Court’s rulings as
“[p]roperly [e]xcluding [i]rrelevant” evidence and testimony).

App. 41
The District Court framed the facts of consequence
in this case as only those that demonstrated a failure
to supervise through the Internal Affairs process. In so
framing the case, the District Court concluded that (a)
evidence that post-dated Forrest’s arrest was not relevant because it was not causally connected—that is,
such evidence would not have helped Internal Affairs
prevent the incident with Forrest; (b) testimonies by
Chief Thomson, the Supercession Executive, and the
Camden County Prosecutor were not relevant because
they were not specific to Internal Affairs, but referred
to the police department in general; and (c) the complaints against Officers Stetser and Parry were not relevant because they did not concern planting drugs or
excessive force.
The District Court’s framing of the case was unduly narrow and incorrect. Forrest’s sole surviving
claim was not that Internal Affairs failed to supervise,
but, more broadly, that Camden failed to investigate
and discipline its officers, and that failure amounted to
deliberate indifference to the rights of those to whom
those officers would come into contact. To that effect,
evidence is not irrelevant merely because it does not
show causation, does not specifically pertain to one
unit of Camden’s police department, or does not focus
on the particular activities carried out by the officers
that were involved in Forrest’s encounter. It is only irrelevant if it bears on no aspect of the overarching theory and its underlying elements. With that framing in
mind, we conclude that the District Court’s evidentiary

App. 42
rulings constituted an abuse of discretion as to the evidence set forth above.
a. Post-arrest evidence is highly relevant to whether
Camden’s failure amounted to deliberate indifference.
At the outset, causation is not the sine qua non of
relevance. The post-arrest evidence included Forrest’s
complaint, the follow-up letter that he sent to Internal
Affairs, and other Internal Affairs complaints regarding similar misconduct by Officers Stetser and Parry.13
Although the failure to investigate those complaints
could not have caused Forrest’s alleged injuries, they
are highly relevant to whether Camden was deliberately indifferent to a continued pattern of police misconduct. Specifically, Camden’s handling of complaints
after Forrest’s arrest is highly relevant to demonstrating that it maintained the same practice prior to and
at the time of said arrest.
We held as much in Beck. 89 F.3d at 967–68. The
case involved a college student, Beck, who brought an
excessive force claim against the City of Pittsburg [sic].
Id. at 969–70. He alleged that an officer used excessive
force in the process of arresting him for driving under
13

We need not reach Forrest’s argument that the District
Court excluded the Sergeant who took over Internal Affairs’s testimony that, when he took over in May of 2009, “there were a lot
of [Internal Affairs] cases open . . . and the investigations weren’t
done,” in addition to other department-wide deficiencies. See Appellant Br. 49–50. The District Court ruled that the Sergeant
would be permitted to testify about “the 400 open [Internal Affairs] cases.” See App. 365.

App. 43
the influence. Id. Inter alia, Beck produced evidence
that several complaints had been filed alleging similar
acts of excessive force by the officer, some before and
some after his arrest, but none of them were sustained
or resulted in discipline. Id. at 970. As to the pre-arrest
complaint, we stated, “[it] may have evidentiary value
for a jury’s consideration [as to] whether the City and
policymakers had a pattern of tacitly approving the
use of excessive force.” Id. at 973. We found that the
post-arrest complaint could support an inference that
policymakers knew, or should have known of the officer’s behavior, and, “because the complaints . . . came
in a narrow period of time and were of a similar nature,” they could also support an inference that policymakers knew of the officer’s “propensity for violence
when making arrests.” Id.
The same is true of the evidence that was excluded
by the District Court here. Forrest’s complaint was
filed days after his arrest, with a follow-up note not
long after that. In addition, the complaints in this case
also came in a narrow period of time and are of a similar nature. Indeed, the three related complaints are
dated December 27, 2007, August 12, 2008, and August
26, 2008, which is less than two months removed from
Forrest’s arrest or, in the case of the first, may have
pre-dated his arrest or was made less than six months
after.14 In terms of the nature of the incidents, the first

14

The parties dispute this issue. The ambiguity arises because the document containing the testimony states that the
“Date of Occurrence” is December 27, 2007, App. 236, but the

App. 44
complaint contained allegations that Officers Stetser
and Parry threw drugs on the floor and claimed that
they belonged to the complainant. The second alleged
that Officer Stetser was taking drugs from drug dealers and putting them on other people. And the third
was that Officer Stetser slammed a minor onto his
marked vehicle, falsely accused the minor of having
drugs on his person, and threatened to arrest everyone
inside the minor’s residence.
This evidence clearly lends credence to the notion
Camden was aware of related, concerning conduct by
its officers and had not responded. It was therefore an
abuse of discretion to exclude this evidence merely because it was not causally related to the incident involving Forrest.
b. The excluded testimonies are highly relevant to
Camden’s investigative and disciplinary inadequacies,
as well as the issue of deliberate indifference.
The excluded testimonies consisted of Chief Thomson’s statement that, when he became Chief, “the
greatest weakness of [Camden] was a culture of apathy
and lethargy,” in which there was “no mechanism of
accountability in place”; Supercession Executive Venegas’s testimony that Camden failed to implement the
NJAG 2006 report’s recommendations, which included
a recommendation to implement formal personnel
evaluation and progressive discipline processes; and,
questioner says the date on which the testimony is being given is
December 1, 2009.

App. 45
the Camden County Prosecutor’s testimony that he received allegations in 2005 that Officer Stetser engaged
in criminal activity and referred those allegations to
Internal Affairs for investigation. We examine each, in
turn.
The District Court’s conclusion that Supercession
Executive Venegas’s testimony was not relevant is belied by the fact that it cited the crux of that testimony
in its opinion denying Camden’s summary judgment
motion. Specifically, the opinion states,
In August 2006, Arturo Venegas began his duties as Supercession Executive, and his consulting agreement implied that the Police
Department lacked “clear standards of performance for the police department and its employees” and a “system of progressive
discipline that holds both employees and their
managers accountable for performance and
behavior.” While this evidence does not compel
a finding of Monell liability, it aids Plaintiff in
establishing genuine issue of material fact
suitable for a jury.
App. 20 (emphasis added). Simply put, evidence that
aids a plaintiff in establishing a genuine dispute of material fact more than meets the low threshold set by
Rule 401.
In addition, the record is clear that both Chief
Thomson and Supercession Executive Venegas were
directly responsible for all of Camden Police, including Internal Affairs. Their testimony regarding Camden’s across-the-board investigatory and disciplinary

App. 46
deficiencies is thus highly relevant to establishing
Camden’s awareness of, and response to, those deficiencies.
Finally, the District Court excluded the Camden
County Prosecutor’s testimony that the office received
allegations against Stetser in 2005 and referred those
allegations to Internal Affairs. Internal Affairs’s records do not reflect that referral or a subsequent investigation. See App. 392–93. The District Court deemed
this evidence irrelevant because there was no evidence
that Camden received the referral. Camden defends
that ruling on the additional ground that the incident
involved an informant who could not identify a picture
of Officer Stetser.
This argument and the District Court’s basis are
beside the point. As Forrest points out, when viewed in
conjunction with the fact that Internal Affairs had instances in which certain complaints were missing, a
reasonable jury could construe this as further evidence
of the inadequacy of Camden’s investigatory regime.
c. The excluded other-misconduct complaints
further demonstrate Camden’s investigative
deficiencies and is also highly relevant to
the issue of deliberate indifference.
The excluded other-misconduct complaint was
dated May 28, 2008, a few months prior to Forrest’s experience. The complainant alleged that on May 1, 2008,
he was approached by two officers when he came out
of a Chinese restaurant after ordering food. Officer

App. 47
Stetser approached and greeted the complainant in a
nice manner, but then proceeded to “jump in his face
all of a sudden (literally face to face) yelling, ‘Motherfucker, you been watching me, motherfucker!’ ” App.
341. The officers then handcuffed and searched the
complainant, who then proceeded to explain that he
only came out for some food. The officers thereafter
walked the complainant back to their police van and
handed him a summons for loitering before releasing
him.
The District Court excluded this evidence because
“Well, it has nothing to do with planting drugs or [excessive force],” despite previously acknowledging that
it contained an allegation that Officer Stetser “wrongfully arrested someone.” App. 376–77. Further, while
the complaint itself concerned the issuance of a wrongful ticket, the underlying conduct is analogous to what
the officers exhibited with Forrest a few months
later—that is, abruptly approaching unwitting civilians and flagrantly ignoring Fourth Amendment prohibitions. Thus, given the temporal proximity and the
similarities between the incident and Forrest’s own experience, the District Court’s decision to exclude this
evidence as irrelevant amounted to an abuse of discretion.
For the foregoing reasons, we conclude that the
District Court abused its discretion when it excluded
evidence that post-dated Forrest’s arrest, albeit not
specific to Internal Affairs or strictly related to other
wrongdoing by Officers Stetser and Parry.

App. 48
C.

Jury Instruction Errors

Forrest did not object to the instructions provided
to the jury. The errors he alleges here have therefore
not been preserved. Rule 51(d)(2) provides that we
“may consider a plain error in the instructions that has
not been preserved . . . if the error affects substantial
rights.” Harvey v. Plains Tp. Police Dept., 635 F.3d 606,
609 (quoting Fed. R. Civ. P. 51(d)(2)). Under that standard, we reverse only if the error is “(1) fundamental
and highly prejudicial or if the instructions are such
that the jury is without adequate guidance on a fundamental question and (2) our refusal to consider the issue would result in a miscarriage of justice.” Id. at 612
(quoting Alexander v. Riga, 208 F.3d 419, 426–27 (3d
Cir. 2000)). We therefore proceed by first considering
whether the District Court committed an error, and if
so, whether the error meets the threshold for reversal.
The jury instructions errors are twofold: first, the
instructions confuse the jury as to the legal requirements for each species of § 1983 liability, and, second,
it narrows the jury’s focus to only evidence pertaining
to Internal Affairs and Officers Stetser and Parry.
Per the former, recall that the onus of demonstrating an official policy or custom only falls on a plaintiff
whose municipal liability claim is predicated on an unconstitutional policy or custom, but that such a plaintiff need not show deliberate indifference on the part
of the municipality. On the other hand, a plaintiff advancing a claim predicated on a municipality’s failure
or inadequacy in training, supervision, or otherwise is

App. 49
spared from demonstrating the existence of an unconstitutional policy or custom but must make the deliberate indifference showing. To the contrary, the jury
here was incorrectly instructed that, in order to find a
municipal liability for inadequate supervision, it had
to find that Camden adopted a policy or custom of inadequate supervision amounting to deliberate indifference to the fact that it would “obviously result in the
violation of an individual’s right to be free from unlawful arrest and excessive force.” App. 463–64.
Indeed, in relevant part, the instructions begin by
stating that the jury must find “that an official policy
or custom of [Internal Affairs] caused the deprivation
[of his constitutional rights].” App. 462. And, after presenting the requirements for determining whether a
policy or custom existed, it frames Forrest’s claim as
“[Camden] adopted a policy of inadequate supervision
and that this policy caused the violation of [Forrest’s]
right[s]. . . .” App. 463. It then immediately follows
with instructions that the jury must also find that Internal Affairs failed to adequately supervise Officers
Stetser and Parry, and that said supervision amounted
to deliberate indifference. App. 463–64. The result is
confusion as to whether the policy or custom finding is
antecedent to reaching the deliberate indifference inquiry, or if the two are intertwined in some other way.
Per the second error, the instructions frame the
case as solely pertaining to the adequacy of Internal
Affairs’s supervision of Officers Stetser and Parry, rather than the adequacy of Camden’s supervision and

App. 50
investigation of its officers in general. Specifically, the
instructions state that,
In order to hold the municipality liable for the
violation of [Forrest’s constitutional rights]
. . . , you must find that [Forrest] has . . .
proved by preponderance of the evidence . . .
[that] [f ]irst, [Internal Affairs] failed to adequately supervise Stetser and Parry. Second,
[Internal Affairs]’s failure to supervise Stetser
and Parry amounted to deliberate indifference. . . . Third, [Internal Affairs]’s failure to
adequately supervise[ ] proximately cause[d]
the violation . . .
App. 463–64 (emphasis added). Further, in instructing
the jury on the elements of deliberate indifference, the
Court again directed the jury to examine whether “[Internal Affairs] knew that Jason Stetser and Kevin
Parry would confront a particular situation.” Id.15
In contrast, the legal requirement for deliberate
indifference is whether “(1) municipal policymakers
know that employees will confront a particular situation; (2) the situation involves a difficult choice or a
15

Forrest argues that the District Court also instructed the
jury on the failure-to-supervise theory that did not survive summary judgment, rather than the failure to investigate and discipline theory that did. But the District Court repeatedly referred
to the surviving theory as one for failure to supervise, but only
through Internal Affairs. See App. 463 (“[O]fficials within [Internal Affairs] are policymaking officials for the issue of whether
[Camden] inadequately supervised its officials and investigated
[I]nternal [A]ffairs complaints.”) (emphasis added). We are therefore not persuaded that what Forrest asserts amounted to error.

App. 51
history of employees mishandling; and (3) the wrong
choice by an employee will frequently cause deprivation of constitutional rights.” Carter, 181 F.3d at 357
(emphasis added). It is not narrowed to the particular
employees in the case. Notably, as the record makes
clear, the Chief of Police had ultimate authority over
Camden’s police department and Internal Affairs but
is not properly considered within Internal Affairs. We
therefore conclude that the instructions provided to
the jury regarding Forrest’s § 1983 claim constituted
error.16
We also conclude that both errors meet the threshold for reversal. The District Court’s instructions narrowed the universe of evidence that the jury could rely
on to only evidence that pertained to Internal Affairs’
16

At argument, Camden made the case that the jury instructions were not erroneous because they were consistent with the
Third Circuit’s Model Jury Instructions. As we recently reiterated, despites [sic] their label, the Third Circuit Model Jury Instructions are not drafted by members of this Court, and are thus
“neither law nor precedential.” See Robinson v. First State Cmty.
Action Agency, 920 F.3d 182, 189–90 (3d Cir. 2019). We nonetheless have observed that it is unlikely that “the use of a model jury
instruction can constitute error.” Id. at 190 (quoting United States
v. Petersen, 622 F.3d 196, 208 (3d Cir. 2010)). To that effect, the
instructions regarding inadequate training or supervision claims
do not suggest that a showing of a policy or custom is required,
but merely that a program was inadequate, that this inadequacy
amounted to deliberate indifference, and proximately caused the
violation complained of. See Third Circuit Model Civil Jury Instruction 4.6.7. Similarly, on deliberate indifference, the same set
of instructions ask whether the entity at issue knew that “employees would confront a particular situation.” Id. (emphasis added).
For the reasons we have set forth, we are not persuaded that the
District Court’s instructions were consistent.

App. 52
supervision of Officers Stetser and Parry, to the exclusion of its broader investigatory inadequacies. It also
left the jury without guidance on the fundamental
question of what it needed to find to conclude that
Camden was or was not liable. Our failure to consider
either error would result in a miscarriage of justice. We
therefore consider both. As Part 3 of the jury verdict is
the only aspect that concerned Camden’s liability under § 1983, we will vacate that aspect of the verdict.
III.

CONCLUSION

For all of the above reasons, we will reverse the
above-specified aspects of the District Court’s summary judgment and evidentiary rulings, vacate part
three of the jury verdict, and remand for further proceedings consistent with this opinion.

App. 53
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 16-4351
-----------------------------------------------------------------------

ALANDA FORREST,
Appellant
v.
KEVIN PARRY, PHM; Camden City Police Officer;
JASON STETSER, PHM; Camden City Police Officer;
CITY OF CAMDEN; CITY OF CAMDEN DEPARTMENT
OF PUBLIC SAFETY; WARREN FAULK; PAULA
DOW; DEPARTMENT OF THE TREASURY,
State of New Jersey; JOHN DOES I-IV
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civ. Action No. 1-09-cv-01555)
District Judge: Honorable Robert B. Kugler
-----------------------------------------------------------------------

Argued November 15, 2018
Before: GREENAWAY, JR., BIBAS,
and FUENTES, Circuit Judges.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

(Filed Jul. 10, 2019)
This cause came to be considered on the record
from the United States District Court for the District
of New Jersey and was argued on November 15, 2018.

App. 54
On consideration whereof, it is hereby ORDERED
and ADJUDGED by this Court that (1) the District
Court judgment entered April 18, 2016 is vacated in
part, specifically as to part 3 of the jury verdict; (2) the
District Court order entered October 20, 2015 is reversed in part; and (3) the District Court order entered
March 15, 2016 is reversed in part and the matter is
remanded to the District Court for further proceedings.
All in accordance with the Opinion of this Court. Costs
taxed against the Appellee.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: July 10, 2019

App. 55
NOT FOR PUBLICATION

(Doc. No. 138)

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
ALANDA FORREST
Plaintiff,
v.
JON S. CORZINE, et. al.,
Defendants.

:
:
:
:
:
:
:

Civil No
09-1555 (RBK/JS)
OPINION
(Filed Oct. 20, 2015)

KUGLER, United States District Judge:
This matter comes before the Court on Defendant
City of Camden’s (“the City”) motion for summary
judgment (Doc. No. 138) on Plaintiff Alanda Forrest’s
(“Plaintiff ”) claims as set forth in Plaintiff ’s Fourth
Amended Complaint (“Complaint”). (Doc. No. 64.) For
the reasons set forth herein, Defendant’s Motion for
Summary Judgment is granted in part and denied in
part.

App. 56
I.

FACTUAL BACKGROUND1

This matter relates to criminal charges brought
against five former officers of the Camden Police Department (“CPD”). (Def.’s SMF ¶¶ 1, 12.) Three of those
officers, Officers Jason Stetser (“Stetser”), Kevin Parry
(“Parry”), and Dan Morris (“Morris”) pleaded guilty to
conspiracy to deprive individuals of their civil rights.
(Id. ¶ 57.) Stetser’s and Parry’s convictions stemmed
from criminal conduct in which they engaged while
serving on the CPD, including filing false reports; conducting illegal searches of properties; providing informants with drugs, money, and food in exchange for
information; planting drugs on individuals to create
criminal liability; and lying under oath in front of
grand juries, suppression hearings, and trials. (Id.
¶¶ 39, 41, 45.) During their time with the CPD, Stetser
and Parry were always partnered with one another.
Morris, Stetser and Parry’s supervisor, knew of and encouraged their criminal behavior. (Id. ¶¶ 33, 51.) As a
result of the investigation into Stetser and Parry, 214
criminal cases had judgments vacated, charges dismissed, or pending indictments forfeited. (Pl.’s SMF
1

When considering a defendant’s motion for summary judgment, the Court views the facts underlying the claims in the light
most favorable to the non-moving party. See Petruzzi’s IGA Supermarkets, Inc. v. Darling-Delaware Co., Inc., 998 F.2d 1224,
1230 (3d Cir. 1993). Here, Defendant’s Statement of Material
Facts (“Def.’s SMF”) is largely undisputed by Plaintiff. (See Pl.’s
Resp. to Def.’s Statement of Facts (“Pl.’s SMF”) ¶¶ 1-80, Doc. No.
144 (disputing only those facts alleged in paragraphs 11, 29, 32,
57, 52, 68).) Therefore, the Court will rely on Defendant’s Statement of Undisputed Material facts, Plaintiff’s Supplemental Statement of Material Facts, and the exhibits contained in the Record.

App. 57
¶ 124.) Included among those 214 cases was Plaintiff ’s
criminal drug conviction, the surrounding circumstances of which serve as the basis for the instant litigation. Those circumstances, taken in the light most
favorable to Plaintiff, are as follows.
On July 1, 2008, Plaintiff was working for a housing contractor at 1263 Morton St., a residence in Camden, New Jersey. (Dep. of Alanda Forrest (“Forrest
Dep.”), Doc. 144, Ex. 64a 88:17-25.) Shortly after finishing work around 9:30 p.m., he walked across the street
to speak to some acquaintances, namely Shahid Green
(“Green”) and a woman named “Hot Dog,” both of whom
were hanging out and drinking on the porch of 1270
Morton Street. (Id. 94:17-95:18.) Plaintiff, Green, and
Hot Dog noticed a police car driving down the street
and decided, given the time of night, to go inside. (Id.
96:1-9.) Sometime thereafter Plaintiff heard what he
thought was a kick at the door. (Id. 103:12-15.) He went
upstairs to talk to “Skeet,” a resident of 1270 Morton
St. who was in an upstairs bedroom, about the kick at
the door. (Id. 103:32-104:4.)
Shortly thereafter, the bedroom door was kicked
in. Plaintiff remembers being hit in the face but does
not remember who hit him. (Id. 108:1-9.) He awoke
to Parry holding him down and hitting him in the face.
(Id. 108:18-22.) Stetser was apparently standing nearby
watching. (Id. 12-16.) Parry handcuffed Plaintiff and
dragged him down the stairs.2 (Id. 119:11-19.) Plaintiff
2

Plaintiff cannot remember if Stetser assisted Parry in dragging him down the stairs.

App. 58
suffered a laceration to his ear, bruising to his face, and
injuries to his knees.3
Plaintiff was then placed in the back of Morris’s
police vehicle. (Id. 122:23-123:5.) Parry allegedly told
Plaintiff that whatever drugs were found in the house
would be attributed to Plaintiff. (Id. 123:16-20.) Morris
drove Plaintiff to a parking lot on Ferry Avenue and
kept him there for approximately thirty minutes before Parry and Stetser arrived and drove him to the
hospital for medical treatment. (Id.) Plaintiff received
stitches for the laceration to his ear. According to
Plaintiff, he reported to the nurses that his injuries
were the result of a fall because Parry threatened to
charge him with assault if he told the medical professionals the truth. (Id. ¶ 128.) After receiving treatment, Plaintiff was taken to the Camden County
Correctional Facility. (Dep. of Alanda Forrest, Feb. 1,
2012 (“Forrest Dep.”) Doc. 144, Ex. 64b at 144-47.)
Parry’s major incident report written recounts the
events leading to Plaintiff ’s arrest much differently.
The report states that Plaintiff was arrested for possession and possession with intent to distribute after
Parry and Stetser allegedly witnessed Plaintiff engaging in a hand-to-hand drug transaction on the porch of
a residence located at 1270 Morton Street. (See Major
Incident Report, Doc. 138, Ex. 24.) The report also
states that Plaintiff initiated the physical altercation.
3

Plaintiff has offered the deposition of Lakesha Primus, a resident of 1270 Morton Street who was present when the events ensued. Her testimony largely supports Plaintiff ’s version of events.
(Dep. of Lakesha Primus, Doc. 144, Exs. 44 & 44a, 44:20-54:20.)

App. 59
Parry testified before a grand jury to this version of
events and claimed that Plaintiff was in possession
of 49 bags of a controlled dangerous substance. (Pl.’s
SMF ¶ 133.) Parry has since conceded that he falsified
the events as recorded in his report. (Def.’s SMF
¶ 64.) He and Stetser witnessed no hand-to-hand drug
transaction but falsely recorded as much in order to
create probable cause for Plaintiff ’s arrest.4 (Id. ¶ 65.)
Likewise, Plaintiff denies distributing drugs and resisting arrest. (Pl.’s SMF ¶ 129.)
Plaintiff complained to Internal Affairs regarding
the events surrounding his arrest. Defendants attach
a complaint filed by Plaintiff on July 21, 2008, shortly
after Plaintiff ’s arrest. The Complaint alleges that Officer Parry and “his partner” caused Plaintiff to sustain
a laceration to his ear requiring stitches, bruises on his
knees, and pain in his neck and back. (Def.’s Br., Doc.
138, Ex. 33.)5

4

Parry testified in Bayard’s and Figueroa’s criminal proceedings that he falsified the reports. (Def.’s SMF ¶ 64 (citing the transcript of Parry’s testimony).) However, in their depositions in
preparation for the instant case, Stetser and Parry stated that
neither remembers the particular events surrounding Plaintiff ’s
arrest. (Def.’s SMF ¶ 62.)
5
Plaintiff also attaches a letter sent to the Internal Affairs
Division on September 25, 2008 reiterating his allegations of excessive force and an October 21, 2008 letter to then-Governor Corzine alleging that Stetser and Parry had fabricated charges
against him. (Doc. 144, Ex. 43.) However, the Court did not consider these documents in rendering its decision because Plaintiff
did not produce them during discovery. (See Decl. of Daniel Rybeck,
Doc. No. 150, Ex. 8.)

App. 60
Despite these complaints, Plaintiff pleaded guilty
to possession and served eighteen months in a New
Jersey state prison. (Forrest Dep. 165:17-23.) Plaintiff
contends that he entered into the plea bargain at the
request of his wife. (Forrest Dep. 159:12-25.) However,
at his plea hearing, Plaintiff told the Court that he
gave his plea freely and voluntarily and denied being
coerced into entering his plea. (Forrest Dep. 160-61.)
Plaintiff’s Complaint asserts multiple claims against
the City of Camden,6 including claims for negligence
(Count VI) and conspiracy (Count VIII), and a Monell
claim pursuant to 42 U.S.C. § 1983 (Count VII). Plaintiff ’s Monell claim alleges that the City of Camden was
deliberately indifferent to the officers’ “prior incidents
of unjustified violations [and] aggressive behavior” and
to “allegations of planting false evidence upon innocent
victims.” (Compl. ¶ 39.) This deliberate indifference,
Plaintiff avers, was a “substantial contributing factor”
in the officers’ use of force and filing of false charges
against the Plaintiff. (Id. ¶ 38.) Defendant filed the instant motion for summary judgment, arguing primarily that Plaintiff has demonstrated no policy or custom
of Camden as required by Monell. Because these issues
have been briefed by the parties, the Court proceeds to
a discussion of the merits.
6

Plaintiff ’s Complaint names both the City of Camden and
the City of Camden Department of Public Safety. However, the
proper Defendant is the City of Camden. See Padilla v. Twp. of
Cherry Hill, 110 Fed. App’x 272, 278 (3d Cir. 2004) (“[B]ecause
the Police Department is merely an administrative arm of the local municipality, [it] is not a separate judicial entity.”).

App. 61
II.

DISCUSSION
A. Standard for Summary Judgment

Summary judgment is appropriate where the Court
is satisfied that “there is no genuine dispute as to any
material fact and that the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see Celotex Corp. v. Catrett, 477 U.S. 317, 330 (1986). A
genuine dispute of material fact exists only if the evidence is such that a reasonable jury could find for the
non-moving party. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). When the Court weighs the evidence presented by the parties, “[t]he evidence of the
non-movant is to be believed, and all justifiable inferences are to be drawn in his favor.” Id. at 255.
The burden of establishing the nonexistence of a
“genuine issue” is on the party moving for summary
judgment. Aman v. Cort Furniture Rental Corp., 85
F.3d 1074, 1080 (3d Cir. 1996). The moving party may
satisfy its burden either by “produc[ing] evidence showing the absence of a genuine issue of material fact” or
by “‘showing’—that is, pointing out to the district court
—that there is an absence of evidence to support the
nonmoving party’s case.” Celotex, 477 U.S. at 325.
If the party seeking summary judgment makes
this showing, it is left to the nonmoving party to “do
more than simply show that there is some metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986).
Rather, to survive summary judgment, the nonmoving
party must “make a showing sufficient to establish the

App. 62
existence of [every] element essential to that party’s
case, and on which that party will bear the burden of
proof at trial.” Celotex, 477 U.S. at 322. Furthermore,
“[w]hen opposing summary judgment, the nonmovant
may not rest upon mere allegations, but rather must
‘identify those facts of record which would contradict
the facts identified by the movant.’ ” Corliss v. Varner,
247 Fed. App’x. 353, 354 (3d Cir. 2007) (quoting Port
Auth. of N.Y. and N.J. v. Affiliated FM Ins. Co., 311 F.3d
226, 233 (3d Cir. 2002)).
In deciding the merits of a party’s motion for summary judgment, the Court’s role is not to evaluate the
evidence and decide the truth of the matter, but to determine whether there is a genuine issue for trial. Anderson, 477 U.S. at 249. Credibility determinations are
the province of the fact finder, not the district court.
Big Apple BMW, Inc. v. BMW of N. Am., Inc., 974 F.2d
1358, 1363 (3d Cir. 1992).
B. Municipal Liability under § 1983
Plaintiff suggests three theories of § 1983 liability.7 First, Plaintiff appears to suggest that the City’s
Internal Affairs system was inadequate and provided
no accountability for Stetser and Parry. (Pl.’s Br. 32,
34.) Second, Plaintiff alleges that the City’s supervisory structure and inadequate monitoring system left
Stetser and Parry unsupervised. (Id. ¶ 32.) Lastly,
7

Because Plaintiff ’s brief cited little to no case law, the
Court was largely left in the dark as to which recognized theories
Plaintiff ’s case relies.

App. 63
Plaintiff asserts that Stetser and Parry received inadequate training because training “about how to recognize and eradicate excessive force and misconduct” was
necessary. (Id. 30-35.) The Court addresses each of
Plaintiff ’s theories in turn.
It is axiomatic that a plaintiff may not hold a municipal entity liable under 42 U.S.C. § 1983 on a theory
of respondeat superior. See Monell v. Dep’t of Soc.
Servs. of City of N.Y., 436 U.S. 658, 691 (1978). Rather,
to establish a § 1983 municipal liability claim that will
survive a motion for summary judgment, a plaintiff
must offer evidence of a particular municipal policy or
custom, “whether made by its lawmakers or by those
whose edicts or acts may fairly be said to represent official policy,” that contributed to Plaintiff ’s injury. See
id. at 694.
After identifying a policy or custom, a plaintiff
then must establish causation by showing how the municipality’s deliberate conduct under that custom was
the “moving force” behind the injury alleged. See Bd. of
Cnty. Comm’rs. of Bryan Cnty, Okla. v. Brown, 520 U.S.
397, 404 (1997). Where the policy “concerns a failure to
train or supervise municipal employees,” this burden
involves demonstrating “that the failure amounts to
deliberate indifference to the rights of persons with
whom those employees will come into contact.” Thomas
v. Cumberland Cnty, 749 F.3d 217, 222 (3d Cir. 2014)
(internal quotation marks and citation omitted). “[T]he
deficiency in training [must have] actually caused the
constitutional violation.” Id. (quoting City of Canton,

App. 64
Ohio v. Harris, 489 U.S. 378, 391 (1989) (internal quotation marks omitted).
While the Supreme Court originally fashioned the
“deliberate indifference” doctrine in the context of a
city’s alleged failure to properly train its police officers,
the Third Circuit has since adopted this standard in
other policy and custom situations. Beck v. City of
Pittsburgh, 89 F.3d 966, 972 (3d Cir. 1996). In general,
a municipality may be liable under § 1983 if it tolerates known illegal conduct by its employees. Id. In such
circumstances, it can be said to have a custom that
evidences deliberate indifference to the rights of its
inhabitants if (1) policymakers were aware that municipal employees had deprived others of certain constitutional rights; (2) it failed to take precautions
against future violations; and (3) this failure led, at
least in part, to the plaintiff ’s suffering the same deprivation of rights. See id. (citing Bielevicz v. Dubinon,
915 F.2d 845, 851 (3d Cir. 1990)).
i. Failure to Supervise, Investigate,
and Discipline
Plaintiff asserts, albeit in not as precise of terms,
that the City of Camden’s Internal Affairs Department
had such an extensive backlog of complaints that many
were improperly investigated or went uninvestigated
altogether. (See Pl.’s Br. 32, 34.) The pivotal case in this
circuit for Plaintiff ’s theory is Beck v. City of Pittsburgh, 89 F.3d 966 (1996). There, the Third Circuit recognized that a § 1983 claim for damages against a

App. 65
municipality could survive summary judgment where
the plaintiff offered evidence suggesting that the municipality’s chief law enforcement policymaker knew
about and acquiesced in the use of excessive force
by city police officers. 89 F.3d 966 (3d Cir. 1996). In
Beck, the plaintiff offered multiple pieces of evidence
in support of his claim, including a series of detailed
excessive force complaints against the defendant police officer who had allegedly injured the plaintiff, none
of which were sustained or resulted in disciplinary action. Beck, 89 F.3d at 969-70. The plaintiff also introduced testimony showing that the department treated
each complaint against an officer as an independent
event triggering no review of any previous unsustained
complaints against the officer. Id. at 969. Lastly, the
plaintiff offered an internal report acknowledging that
the department had a problem with officers using excessive force. Id. at 970, 975. Accordingly, the Third Circuit panel reversed the trial court’s grant of judgment
as a matter of law in favor of the defendant municipality. Id. at 976.
Since the Beck decision, trial courts in this circuit
have grappled with the issue of what type of evidence
a plaintiff must adduce in support of a Monell municipal liability claim under § 1983 in order to survive
summary judgment. For instance, statistical evidence
alone, “isolated and without further context,” generally
may not justify a finding “that a municipal policy or
custom authorizes or condones the unconstitutional
acts of police officers.” Merman v. City of Camden, 824
F. Supp. 2d 581, 591 (D.N.J. 2010) (citing Strauss v.

App. 66
City of Chi., 760 F.2d 765, 768-69 (7th Cir. 1985)). Instead, if a plaintiff wishes to rely principally on statistics, she must also show why those prior incidents were
wrongly decided and “how the misconduct in those
cases is similar to that involved in the present action.”8
See Franks v. Cape May Cnty., No. 07-6005, 2010 WL
3614193, at *12 (D.N.J. Sept. 8, 2010).
In this case, when viewing the facts in the light
most favorable to Plaintiff, the Court concludes that
Plaintiff has met his burden and demonstrated a genuine issue of material fact. Plaintiff has offered statistical reports and testimony from Lt. Sosinavage, the
Internal Affairs Director from 2004 to 2008, that the
department was suffering from a significant backlog of
complaints in the years leading up to Plaintiff ’s arrest.
Sosinavage testified that the department in those
years was investigating and closing only a tiny fraction
of its excessive force complaints.9 Of those complaints
8

One way to do this could be to show that the officer whom
a plaintiff accuses of using excessive force has been the subject of
multiple similar complaints in the past. See Beck, 89 F.3d at 975;
see also Garcia v. City of Newark, No. 08-1725, 2011 WL 689616,
at *3-5 (D.N.J. Feb. 16, 2011) (showing that the six individual defendants together accounted for more than 55 complaints for excessive force and false arrest in the 11 years prior to the incidents
at issue). Alternatively, when such evidence against the particular officer is not available, a trial court in this District has found
sufficient a plaintiff ’s submission of a sample of forty excessive
force complaints from the relevant police department bearing
similarities to her own case and arguably evidencing a tendency
on the part of the Internal Affairs division to insulate officers from
liability. Merman, 824 F. Supp. 2d at 593-94.
9
For example, in 2004, there were 176 open excessive force
cases, 76 of which were pending from 2003, and the department

App. 67
investigated, an even smaller number were sustained.
Indeed, from 2004 to 2008, the department sustained
only one excessive force complaint. (Sosinavage Dep.,
Doc. No. 144, Ex. 48, 132:6-133:9.) The backlog seems
to have been a recurring issue with the CPD’s internal
affairs department. A 2002 Report from New Jersey’s
Division of Criminal Justice advised that “[t]he failure
to immediately address the complaint backlog and,
over the longer term, ensure that the backlog does not
reoccur on a regular basis, could lead one to conclude
that the City of Camden and the police department are
deliberately indifferent to the conduct of its police officers and the civil rights of its citizens.”10 (2002 Report
at 45, Doc. 144, Ex. 38.) Although, standing alone, this
is the type of statistical evidence that cannot support
a finding of municipal liability under § 1983, see Merman, 824 F. Supp. 2d at 591, when coupled with Plaintiff ’s additional evidence, the Court finds it instructive.
Plaintiff also introduces internal affairs records
showing that Stetser and Parry were the subjects of
internal affairs complaints prior to Plaintiff ’s arrest.
Internal Affairs files reveal that Stetser had six internal affairs complaints lodged against him between
2004 and July 2008—not including Plaintiff ’s—

closed only eleven. Thus, 167 excessive force cases from 2003 and
2004 were still open in 2005. In total, there were 487 cases held
over in the year 2004. (Dep. of John Sosinavage, Doc. No. 144, Ex.
48, 42:25-47:18.)
10
The Court recognizes that this Report was written six
years prior to Plaintiff ’s arrest. However, given CPD’s uninterrupted backlog of civilian complaints, the Court finds it relevant.

App. 68
including one for excessive force, one for improper arrest, and one for harassment/improper detainment.
(Pl.’s Br., Doc. 144, Ex. 58a at 4 (showing Stetser’s internal affairs “index card.”); id., Ex. 57.) Parry was the
subject of two internal affairs complaints during this
time period, although notably, one does not appear on
the “index card” in Parry’s IA files.11
The Court recognizes that in many cases in which
courts have denied summary judgment, plaintiffs have
offered stronger evidence of consistently filed complaints than is offered here. See Beck, 89 F.3d at 983
(denying summary judgment where plaintiff introduced that the officer had five prior complaints filed
against him in five years, all of which alleged similar
misconduct); Garcia, 2011 WL 689616 at *3-5 (D.N.J.
Feb. 16, 2011) (denying defendant municipality’s motion for summary judgment on plaintiff ’s § 1983 claim
when plaintiff presented evidence that the six individual defendants together accounted for more than 55
complaints for excessive force and false arrest in the
11 years prior to the incidents at issue); Merman, 824
F. Supp. at 593 (allowing the case proceed when plaintiff introduced, among other things, evidence that the
Camden Police Department received ten civilian complaints alleging police brutality stemming from events
surrounding Plaintiff ’s arrest). However, the Court
11

Stetser and Parry also had three complaints filed against
them after Plaintiff ’s July 1 arrest. However, because they were
filed after Plaintiff ’s original excessive force complaint, the Court
finds them irrelevant in determining whether the department
should have known that Stetser and Parry were at risk of violating Plaintiff ’s civil rights. (See Pl.’s Br., Doc. 144, Exs. 55, 56, 59.)

App. 69
does not find the number of complaints filed against
the officers to be dispositive. Here, the allegations contained in the complaints and the thoroughness of the
related investigations further influence the Court’s decision.
For example, the first recorded excessive force
complaint alleged against Stetser was “not sustained,”
which simply means than an allegation could not be
proved or disproved at that time. (Sosinavage Dep.,
Doc. 144, Ex. 48, 30:7-10.) Thus, a factfinder could reasonably conclude that the “not sustained” complaints
might actually represent evidence of prior constitutional violations. The “unfounded” complaint was filed
on August 29, 2007, more than a year before Plaintiff ’s
arrest, and contains allegations nearly identical to
those Plaintiff now alleges and to which Stetser and
Parry later admitted.12 (Pl.’s Br. Ex. 58.) A disposition
of “unfounded” means that the investigator determined
that the reported incident “did not occur” and that the
complainant was “lying more or less.” (Sosinavage Dep.
30:11-15.) Yet, the investigation of Mr. Whitley’s complaint appears to have been less than thorough. An Internal Affairs investigative memorandum indicates
that the department interviewed no witnesses or even
the officers. In fact, it appears the investigator made
12

As far as the Court can tell, the “complaint” came in the
form of a motion filed by Harold Whitley’s attorney seeking the
personnel records of Parry and Stetser. The complaint states that
Stetser and Parry planted evidence on Whitley, whom they had
arrested on drug charges. Whitley’s counsel also relayed that two
other individuals had alleged the same misconduct against Officer Stetser. (See Doc. 144, Ex. 58.)

App. 70
his determination after examining only the major incident reports accompanying the arrests.13 (Id.)
There is also evidence in the record that the department’s internal operations were in disarray in
the years leading up to Plaintiff ’s arrest. The Attorney
General of New Jersey had directed the Camden
County Prosecutor’s Office to take over the management of the Camden Police Department. In August
2006, Arturo Venegas began his duties as Supercession
Executive, and his consulting agreement implied that
the Police Department lacked “clear standards of performance for the police department and its employees”
and a “system of progressive discipline that holds both
employees and their managers accountable for performance and behavior.” (Consulting Agreement at 3 ¶ g,
Doc. 144, Ex. 36.) While this evidence does not compel
a finding of Monell liability, it aids Plaintiff in establishing genuine issue of material fact suitable for a
jury.
Defendant argues that Plaintiff cannot establish
a nexus because the Camden County Prosecutor’s Officer (“CCPO”) suspended the CPD’s investigation of
Stetser and Parry pending the CCPO’s criminal investigation into the officers. (Def.’s Br. 21) However, based
on the exhibits cited by Defendants, the CCPO did not
take over the CPD’s investigation until September 16,
13

The memorandum indicates that the IA investigator looked
only at the major incident reports authored by the respective officers, after which the investigator found “no evidence that would
substantiate any violations of Rules and Regulations or inappropriate behavior on the part of any officer involved.” (Id.)

App. 71
2008, more than two months after Plaintiff ’s arrest.
(Def.’s Br. Ex. 29.)14 The evidence on which Plaintiff
relies questions the adequacy of the Internal Affairs
investigations in the years leading up to Plaintiff ’s arrest. “Were a jury to credit [P]laintiff ’s proofs that the
City inadequately investigated its officers’ alleged use
of excessive force and other constitutional violations
and failed to properly supervise and discipline its officers, a reasonable fact-finder could, in turn, conclude
that the City’s action, or lack thereof, constituted deliberate indifference and proximately cause plaintiff ’s
injuries.” Merman, 824 F. Supp. 2d at 594. The causal
link is not too tenuous, and therefore, the question
whether the municipal policy or custom proximately
caused the constitutional infringement should be left
to the jury. Bielevicz v. Dubinon, 915 F.2d 845, 851 (3d
Cir. 1990). As such, the Court denies Defendant’s Motion for Summary Judgment with respect to Plaintiff ’s
Monell claim premised on his failure to investigate
theory.
The Court’s decision does not imply that the City’s
handling of civilian complaints was wholly improper or
unfair. The Court simply finds that the Plaintiff has
provided enough evidence to present his case to a jury.
A jury is free to disagree with Plaintiff ’s theory and
find that the City’s internal affairs investigations were
14

The deposition of Mark Chase, an Assistant Prosecutor at
the CCPO, reveals that the CCPO first learned of allegations
against Stetser, Parry, and others in January 2008, but that the
investigation was in the City of Camden’s hands until September
2008. (Def.’s Br., Ex. 28, 54:1-8; 59:19-69:4.)

App. 72
adequate and did not proximately cause Plaintiff ’s
constitutional injury. The Court does not consider the
merit of Plaintiff ’s claim or Plaintiff ’s ability to satisfy
each element of liability.15 The Court simply concludes
that it cannot rule against Plaintiff ’s Monell claim
against the City as a matter of law at this time.
ii. Failure to Supervise
Plaintiff also alleges that the CPD’s supervisory
structure and generally inadequate supervision of its
officers’ day-to-day activities caused Plaintiff ’s constitutional injuries. (Pl.’s Br. ¶¶ 30, 32, 33.) The Court
notes that Plaintiff cites no case law in support of its
position and introduces no expert testimony to opine
on the CPD’s supervisory structure or monitoring equipment. Nonetheless, after considering the evidence on
which Plaintiff relies, the Court finds the Plaintiff has
not identified a genuine issue of material fact for trial
on this theory. Plaintiff has not shown how the CPD’s
supervisory structure or its failure to equip its vehicles
with monitoring capabilities would have prevented
Stetser and Parry from engaging in criminal activity.
15

The Court also recognizes that Plaintiff does not have an
expert to opine on the adequacy of CPD’s Internal Affairs investigations. Although this fact may affect Plaintiff ’s ability to convince a jury, it is not a death knell at this stage. See Beck, 89 F.3d
at 975-76 (“As for drawing inferences from the evidence regarding
the adequacy of the investigatory process, we again agree with
Beck that ‘to require expert testimony to prove this fact is ridiculous. It is not beyond the ken of an average juror to assess what a
reasonable municipal policymaker would have done with the information in this case.’ ”).

App. 73
Moreover, there is also “not a single precedent which
holds that a governmental unit has a constitutional
duty to supply particular forms of equipment to police
officers.” Plakas v. Drinksi, 19 F.3d 1143, 1150 (7th Cir.
1994). In fact, Defendant’s expert certified that the
electronic monitoring of its officers’ activities, instituted sometime after Plaintiff ’s arrest, “far exceeds the
practices of law enforcement nationwide.” (Def.’s Br. 5.)
The causal link is simply too tenuous to withstand a
motion for summary judgment.
iii. Failure to Train
Plaintiff asserts that “[t]he failure to train . . .
Stetser and Parry was a deliberate indifference to the
rights of persons” with whom the officers came into
contact. (Pl.’s Br. 34.) Specifically, he first argues that
the failure to train was “obvious” given the way tests
were administered and graded. (Id. ¶ 35.) Plaintiff also
argues it was necessary for the CPD to periodically
publish to officers its “use of force policy and the code
of conduct” and provide effective training to officers
and supervisors “about how to recognize and eradicate
excessive force and misconduct.” (Id. at 35.)
In resolving the issue of a city’s liability for failure
to train, as Plaintiff alleges here, “the focus must be on
adequacy of the training program in relation to the
tasks the particular officers must perform.” City of
Canton, 489 U.S. at 390 (1989). The identified deficiency in a city’s training program must also be closely
related to the plaintiff ’s constitutional injury because

App. 74
“[i]n virtually every instance where a person has had
his or her constitutional rights violated by a city employee, a § 1983 plaintiff will be able to point to something
the city ‘could have done’ to prevent the unfortunate
incident.” Id. at 392 (citation omitted). Thus, Plaintiff ’s
claim yields liability against the City of Camden only
where Plaintiff can show that the City’s failure to train
constituted deliberate indifference to the constitutional rights of its inhabitants.
Plaintiff has not adequately demonstrated that
the training Parry and Stetser received was so deficient as to reflect the City of Camden’s deliberate indifference to Plaintiff ’s constitutional rights. Plaintiff
admits that Parry and Stetser received training on, inter alia, morals and ethics, the use of force, and arrests.
(Def.’s SMF ¶ 3, 13.) Plaintiff also concedes that both
Parry and Stetser knew that their clandestine conduct,
namely planting drugs on individuals, falsifying police
reports, fabricating arrests, etc., were criminal acts
not in accordance with the department’s policies. (Id.
¶¶ 17-22, 27.)
Instead, Plaintiff simply asserts that the testing
procedures and training were so obviously inadequate
as to constitute deliberate indifference. However, Plaintiff has not sufficiently shown how the City’s testing
procedures caused Stetser and Parry to engage in blatantly criminal conduct. The same can be said about
Plaintiff ’s contention that the CPD should have more
frequently published its excessive force policies. The
Court finds nothing in the record to connect Stetser’s
and Parry’s flagrantly criminal conduct to the City’s

App. 75
failure to more frequently publish its excessive force
policies. Indeed, as Plaintiff concedes, it appears to the
Court that Stetser and Parry engaged in criminal conduct in spite of their training and not because of it. (See
Def.’s SMF ¶ 50.) Accordingly, Defendants motion is
granted with respect to Plaintiff ’s Monell claim premised on the City’s failure to train Stetser and Parry.
C. Negligence
Count VI of Plaintiff ’s Complaint alleges that the
City of Camden was negligent “in failing to adequately
supervise or monitor the actions of police officers who
were involved in the incident, including without limitation, Parry and Stetser.” (Compl. ¶ 33.) Defendants
contend that Count VI is simply another iteration of
Plaintiff ’s Monell claim and therefore compels summary judgment because “respondeat superior or vicarious liability will not attach against a municipal
defendant.” See Def.’s Br. at 15. However, although not
mentioning the tort by name, Plaintiff appears to state
a cause of action under New Jersey law for the tort of
negligent hiring, supervision, and retention. See Hottenstein v. City of Sea Isle City, 977 F. Supp. 2d 353,
369 (D.N.J. 2013) (identifying the elements of this tort
action). New Jersey law allows plaintiffs to assert
claims against municipalities for negligent supervision
of their employees. Clemons v. City of Trenton, No. 10cv-4577, 2011 WL 194606, at *1 (D.N.J. Jan. 20, 2011)
(citing Hoag v. Brown, 935 A.2d 1218 (N.J. Super. Ct.
App. Div. 2007)). Moreover, “a claim based on negligent hiring or negligent supervision is separate from a

App. 76
claim based on respondeat superior.” Hoag, 935 A.2d at
1230. The Court finds that Plaintiff has provided
enough evidence to withstand Defendant’s Motion for
Summary Judgment on Plaintiff ’s theory that the internal affairs department provided inadequate supervision of its officers.
D. Conspiracy
In Count VIII, Plaintiff alleges a conspiracy claim
against the City of Camden. Plaintiff ’s conspiracy
claim asserts that Parry and Stetser conspired amongst
themselves to deprive Plaintiff and others of their constitutional rights.16 (Fourth Amended Compl. ¶¶ 4552.) Although Defendant did not move for summary
judgment in its initial brief, district courts have the
power to grant summary judgment sua sponte when
appropriate. See Powell v. Beard, 288 Fed. App’x. 7, 8-9
(3d Cir. 2008).
As explained infra, it is well settled that a municipality is liable under § 1983 only where a municipal
policy or custom caused the constitutional violation at
issue. Monell, 436 U.S. at 691. Thus, the City of Camden is not liable for a conspiracy between Parry and
Stetser unless an official policy or custom underlies the
conspiracy. See Weiland v. Palm Beach Cnty. Sheriff ’s
Office, 792 F.3d 1313, 1330 (11th Cir. 2015) (“While this
Court has never had occasion to hold that a conspiracy
16

Although Plaintiff does not specifically identify the cause
of action, the court interprets Plaintiff ’s complaint to assert a
cause of action under 42 U.S.C. § 1985(3).

App. 77
claim against a municipality must include the existence of a policy or custom underlying the conspiracy,
that has to be so.”) Holding otherwise would subject
the City of Camden to § 1983 liability on a theory of
respondeat superior, which the courts have long held is
prohibited. Here, the claim hinges liability on the theory that the City “should have been aware of [the officers’] conspiracy.” (Compl. ¶ 51.) Because a municipal
entity cannot be found liable solely on a theory of respondeat superior, the Court grants Defendants motion for summary judgment with respect to Count VII
[sic] of the Complaint.
III. CONCLUSION
The Court concludes that summary judgment is
unwarranted on Plaintiff ’s § 1983 claim and negligent supervision claim because material disputes of
fact still exist. An appropriate order shall enter today.
Dated: 10/20/2015

s/Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

App. 78
NOT FOR PUBLICATION

(Doc. No. 138)

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
ALANDA FORREST
Plaintiff,
v.
JON S. CORZINE, et. al.,
Defendants.

:
:
:
:
:
:
:

Civil No
09-1555 (RBK/JS)
ORDER
(Filed Oct. 20, 2015)

KUGLER, United States District Judge:
THIS MATTER having come before the Court on
Defendant City of Camden’s (“the City”) motion for
summary judgment (Doc. No. 138) on Plaintiff Alanda
Forrest’s (“Plaintiff ”) claims as set forth in Plaintiff ’s
Fourth Amended Complaint (“Complaint”) (Doc. No. 64.);
and the Court having considered the moving papers; and
for the reasons expressed in this Court’s Opinion issued today;
IT IS HEREBY ORDERED that Defendant’s
Motion for Summary Judgment is GRANTED as to
Count XIII (Conspiracy);
IT IS HEREBY FURTHER ORDERED that Defendant’s Motion for Summary Judgment is DENIED
as to Counts VI (Negligent Supervision) and Counts
VII (Monell liability pursuant to 42 U.S.C. § 1983).
With respect to Count VII, Plaintiff may proceed on his

App. 79
theory that the City’s Internal Affairs Investigations
were inadequate. (See Op. 8–13.).
Dated: 10/20/2015

s/Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

App. 80
NOT FOR PUBLICATION

(Doc. Nos. 164–177)

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
ALANDA FORREST
Plaintiff,
v.
CITY OF CAMDEN
Defendants.

:
:
:
:
:
:
:

Civil No
09-1555 (RBK/JS)
ORDER
(Filed Mar. 15, 2016)

KUGLER, United States District Judge:
THIS MATTER having come before the Court on
the motions in limine of Plaintiff Alanda Forrest
(“Plaintiff ”) and Defendant City of Camden (“Defendant”); and the Court having considered the moving papers; and for the reasons expressed at the hearing held
on March 14, 2016;
IT IS HEREBY ORDERED that Defendant’s
motion to exclude evidence irrelevant to Plaintiff ’s
claim (Doc. No. 164) is GRANTED with respect to
(1) Sgt. Dan Morris’s history of excessive force complaints; (2) Chief John Scott Thomson’s testimony;
(3) the internal affairs (“IA”) investigation of Plaintiff ’s
IA Complaint he made after his arrest; (4) the accreditation of the CPD police force; (5) the lack of IA reports in personnel files, (6) training on the use of force,
(7) the failed sting operation; and (8) Sgt. Wysocki’s

App. 81
testimony on (a) the lack of communication between
supervisors and officers, (b) random patrol, (c) random
checks conducted on June 23, 2009, and (d) falsification
of reports since May 2009. Defendant’s motion is DENIED with respect to Joseph Wysocki’s testimony regarding the 400 open internal affairs complaints.
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to bar the testimony of Arturo Venegas (Doc. No. 165) is GRANTED.
IT IS HEREBY FURTHER ORDERED that
Defendant’s motion to bar the testimony of internal affairs records (Doc. No. 166) is GRANTED with respect
to Complaint Nos. 08-295, 08-301, 08-137, and 08-222.
Defendant’s motion is DENIED with respect to Complaint no. 07-211 and the statistical evidence on the IA
department.
IT IS HEREBY FURTHER ORDERED that
Defendant’s motion to bar the testimony of Benjamin
Vautier (Doc. No. 167) is DENIED.
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to bar the testimony of Christine
Tucker (Doc. No. 168) is GRANTED.
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to bar testimony of Kevin Blevins
(Doc. No. 169) is DENIED WITHOUT PREJUDICE.
IT IS HEREBY FURTHER ORDERED that
Defendant’s motion to bar the testimony of Mark
Chase regarding a 2005 investigation involving Jason
Stetser (Doc. No. 170) is GRANTED.

App. 82
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to offset any future jury verdict by
Plaintiff ’s prior superior court settlement (Doc. No.
171) is DENIED WITHOUT PREJUDICE pending
the outcome of trial.
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to bar Plaintiff from testifying as to
medical diagnoses (Doc. No. 176) is DENIED.
IT IS HEREBY FURTHER ORDERED that Defendant’s motion to bar the testimony of Edward Hargis (Doc. No. 177) regarding the recommendations of
the Blue Ribbon Panel is DENIED. Edward Hargis is
permitted to testify to the relevant portions of the recommendations, namely the portions concerning the
lack of oversight and supervision of officers.
IT IS HEREBY FURTHER ORDERED that
Plaintiff ’s motion to preclude the expert testimony and
report of John T. Ryan (“Mr. Ryan”) (Doc. No. 172) is
DENIED. Defendants are permitted to provide the
Court and Plaintiff with a supplemental report of Mr.
Ryan and make Mr. Ryan available to Plaintiff for a
pre-trial deposition at the cost of Defendant.
IT IS HEREBY FURTHER ORDERED that
Plaintiff ’s motion to preclude testimony regarding the
training of Jason Stetser and Kevin Parry (Doc. No.
173) is GRANTED.
IT IS HEREBY FURTHER ORDERED that
Plaintiff ’s motion to bar evidence of Plaintiff ’s prior

App. 83
criminal background (Doc. No. 175) is DENIED
WITHOUT PREJUDICE.
IT IS HEREBY FURTHER ORDERED that for
the reasons expressed on the Record at the hearing
held on March 14, 2016, Plaintiff ’s claims against Defendants Kevin Parry and Jason Stetser are DISMISSED.
Dated: 03/15/2016

s/Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

App. 84
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 16-4351
-----------------------------------------------------------------------

ALANDA FORREST,
Appellant
v.
KEVIN PARRY, PHM; Camden City Police Officer;
JASON STETSER, PHM; Camden City Police
Officer; CITY OF CAMDEN; CITY OF CAMDEN
DEPARTMENT OF PUBLIC SAFETY; WARREN
FAULK; PAULA DOW; DEPARTMENT OF THE
TREASURY, State of New Jersey; JOHN DOES I-IV
-----------------------------------------------------------------------

Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR., KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, and FUENTES,* Circuit Judges.
(Filed Aug. 6, 2019)
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
*

Judge Fuentes’s vote is limited to panel rehearing only.

App. 85
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/Joseph A. Greenway, Jr.
Circuit Judge
Dated: August 6, 2019
Lmr/cc: Elizabeth A. Rose
John C. Eastlack, Jr.
Georgios Farmakis
Lilia Londar
Daniel E. Rybeck

App. 86
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ALANDA FORREST,
Plaintiff,
CIVIL ACTION
-vsNUMBER:
CITY OF CAMDEN; CITY OF
09-1555
CAMDEN DEPARTMENT OF
PUBLIC SAFETY; CAMDEN
CITY POLICE OFFICER
KEVIN PARRY; CAMDEN CITY
POLICE OFFICER JASON
STETSER; JOHN DOES I-IV.
Defendants.
Mitchell H. Cohen United States Courthouse
One Jon F. Gerry Plaza
Camden, New Jersey 08101
March 14, 2016
BEFORE:
THE HONORABLE ROBERT B. KUGLER
UNITED STATES DISTRICT JUDGE
APPEARANCES:
BEGELMAN ORLOW & MELLETZ
BY: PAUL R. MELLETZ, ESQUIRE
ATTORNEYS FOR THE PLAINTIFF
WEIR & PARTNERSHIPS LLP
BY: JOHN C. EASTLACK, JR.
DANIEL E. RYBECK, ESQUIRE
ATTORNEYS FOR DEFENDANTS

App. 87
[2] (Open Court)
THE DEPUTY COURT CLERK:
THE COURT:

All rise.

Good afternoon. Have a seat.

MR. MELLETZ:
MR. EASTLACK:

Good afternoon.
Good afternoon, Your Honor.

THE COURT: All right. Let’s start with the appearances of counsel. We’ll start with Mr. Melletz for
the plaintiff, please.
(See appearances on the cover page)
THE COURT: I figure you must be Mr. Rybeck.
We have a number of in limine motions to go over. And
then I want to talk about the trial and the logistics of
the trial.
Okay, we will start, I’m going to start with the order in which they were filed on the docket. And the first
is number 164, which is defendant’s motion to bar evidence unrelated to the Monell claim. The opposition is
document number 190.
Now, there are no training claims left in the case.
This is the only claim left in the case, the failure to supervise through the Internal Affairs process. It’s a little difficult to decide some of these in limine motions
because so much is depending on the context of the motion, and without there being a trial, it’s difficult. But
defendant has listed beginning at page four of its brief
all of which appear on the Joint Final Pretrial Order

App. 88
that they think it should be [3] barred. So let’s talk
about them.
One of the issues I want to talk about is why, Mr.
Melletz, these do not, many of these do not qualify as
subsequent remedial measures under 407.
MR. MELLETZ: Yes, Your Honor. The reason is
that we contend we’re not seeking to do it for that purpose, but to show the culture and problems that the
supervision of the Police Department had, and that
there could have been some of these things taken care
of if they had a better organization of it. And in the
context of the culture, for example, the officers were
not having to indicate where they were. There was no
way of tracing where they were at times, which goes to
the supervision.
THE COURT: Well, it was in their logs. The
question is whether their logs were accurate. Now they
have a system electronically where they can be traced
throughout the city. But that’s a subsequent measure,
was it not? That was adopted after your client had been
arrested.
MR. MELLETZ: It was true, your Honor, that
was adopted after he was being arrested.
THE COURT: Don’t you want to show they
should have done that before, that that would be good
police practices they should have done before?
MR. MELLETZ: Yes, your Honor. And, but at the
same time, the reports from the Attorney General’s office had [4] various recommendations, not as specific

App. 89
as, well, do this and do that, but in terms of, well, there
should be better control over them. Over the officers.
THE COURT: But you’re acknowledging that
the new measures permit the City supervisors to exercise better control over the officers, correct?
MR. MELLETZ:

Yes.

THE COURT: So that’s a subsequent remedial
measure. Isn’t that protected under Rule 407? You’re
using it to show that the measures they used to have
were inadequate under the law. But 407 says you can’t
do that, doesn’t it?
MR. MELLETZ: Yes, your Honor, it does. But
what I’m indicating, your Honor, is we’re not saying
that we want to use it for that purpose, but to – as
showing that the people were not able to be supervised
at the same time, because there just wasn’t any ability
or interest to supervise them. They just were taking
their logs.
THE COURT: Well, that’s not the point you raise
in your brief. You raised in your brief, you’re saying you
want to be of the exceptions under 407 to show feasibility, and you want to use it to show feasibility, that’s
what your brief argues. And my question to you is
where does the defendant ever argue it’s not feasible
to have done these things?
MR. MELLETZ: Well, the defendant, I believe
his expert report indicates that there was no necessity
for all [5] this money to be spent, and it was not a
standard for some of these measures to be taken.

App. 90
THE COURT: Well, he says that the measures
that were being taken met the Attorney General standards for Internal Affairs and all that. We’ll get to that
because that’s a subject of another point of your motion. But the defendant, as I understand it, has never
raised the defense that it was not feasible to institute
these kinds of things, such as the automatic vehicle location, the real time tactical operation information
center, the video camera in the sky, the Shot Spotter,
the microphones, the Guardian system, things of that
nature. I’ve never seen a defendant say these were not
feasible at the time.
MR. MELLETZ:
THE COURT:
then, under 407?

That’s correct, your Honor.
Well, don’t you have a problem

MR. MELLETZ: Yes, your Honor. But my concern is that some of the items, not the shots or the being able to find shots going on, but the idea of a system
that they could be better supervised by location and
communication is where we’re seeking or concentrating on.
THE COURT: All right. Well, let’s talk about Sergeant Morris’ Internal Affairs complaints, complaints
against Sergeant Morris. I’m not sure what that’s got
to do – first of all, how is that relevant to your claim
that [6] the City failed through IA to adequately supervise Parry and Stetzer?
MR. MELLETZ: Well, if the – their immediate
supervisor had a history in the past of problems

App. 91
concerning excessive force, then it would indicate that
he’s not going to be a proper supervisor for that type of
problem, in his mindset. And that’s where we’re going.
THE COURT: But the claim that remains is the
Internal Affairs. What does the fact that, assuming it’s
a fact, that there are Internal Affairs complaints
against Sergeant Morris in the past got to do with
what Internal Affairs was doing with Stetzer and
Parry? Stetzer and Parry violated your client’s rights.
MR. MELLETZ:

Yes.

THE COURT: What do the complaints against
Morris have to do with what steps Internal Affairs was
taking against Stetzer and Parry?
MR. MELLETZ: That, in terms of Internal Affairs, nothing, your Honor.
THE COURT: How is it even relevant under
Rule 401? Forget about 403 at the moment, how is it
even relevant under 401 that there have been complaints? And I don’t know any details about these complaints against Sergeant Morris.
MR. MELLETZ: The only contention that we
have, your Honor, is that if Sergeant Morris had in the
past been using [7] excessive force himself, then he was
not going to be going out and looking for his people,
Parry and Stetzer, to be – whether they were doing excessive force. And that is strictly our argument, your
Honor.

App. 92
THE COURT: Well, is there any evidence that
Morris knew that there wouldn’t be any consequences
to Parry and Stetzer if there were complaints against
Parry and Stetzer for use of excessive force?
MR. MELLETZ: Well, the only connection we
have, your Honor, is – with Morris is that our client
indicates that he was taken in the car by Morris, kept
in a parking lot for about half an hour when he needed
medical attention, and then taken to a hospital. And he
was obviously bleeding and had been injured at that
time.
Now, I agree that Morris did not physically see the
beating, he came immediately thereafter while it was
still on the scene.
THE COURT: Well, if you’re suggesting that
Morris violated your client’s rights, you should have
sued him, shouldn’t you?
MR. MELLETZ:

Yes, your Honor. And we did not.

THE COURT: All right. Well, I’m going to grant
the motion as to the past complaints against Morris for
excessive force, and I’m going to grant the motion as to
paragraph 7 through 9 of the Pretrial Order which has
to do with the [8] microphones, the video camera, the
automatic vehicle location and things of that nature.
As to paragraph 6 of the Pretrial Order, these are,
just so the record is clear, these are part three of the
Plaintiff ’s contested facts beginning on page two. Paragraph 6, John Scott Thomson became Chief of Police
on August 1st, 2008. He identified the greatest

App. 93
weakness of the Camden Police Department when he
became Chief to be the culture of apathy and lethargy.
There was no mechanism of accountability in place,
there was no baseline standard – I’m not even sure
what that means. What’s it got to do with Internal Affairs?
MR. MELLETZ: Again, your Honor, that Internal Affairs is part of the whole system in the police department, and that this culture of apathy and lethargy
and no mechanism of accountability in place, no baseline standard, would have included the Internal Affairs.
THE COURT: Where does it say that? Where
does the Chief say that there was a problem in Internal
Affairs?
MR. MELLETZ: He did not say it, your Honor, in
this area. He would be called as a witness is my intention to discuss that with him.
THE COURT: Well, okay. I mean he can testify
about Internal Affairs, I guess. But your paragraph
number 6 really isn’t relevant to the issues in the case.
So I’ll grant the motion as to that.
[9] Now, I’m not sure where this is, but in defendant’s brief, page five, you have a number 3. Plaintiff
complained to CPD IAD concerning his arrest, and
plaintiff claims no investigation was undertaken by
CPD IAD of his complaint.

App. 94
What exactly – I know, I mean you’re alleging that
your client complained to IAD, Internal Affairs, correct?
MR. MELLETZ:

Yes.

THE COURT: What is your understanding of
what happened to that complaint?
MR. MELLETZ: My understanding is, your
Honor, that it sat for a period of time. There was some
investigation, but nothing of any real substance, and
that basically was it. And my client would write letters.
THE COURT:
finding?

Well, was it ever closed with any

MR. MELLETZ:
THE COURT:
is that correct?

So, it remains pending to this day;

MR. MELLETZ:
THE COURT:

No. I don’t believe there was.

Technically, I suppose so.

Okay. Mr. Eastlack.

MR. EASTLACK: Yes. Judge, with regard to
that, in the New Jersey Attorney General Guidelines it
indicates that if there is – I mean he was interviewed,
and I think it’s acknowledged by the plaintiff. He’s not
saying he wasn’t interviewed, he’s not saying there
wasn’t any investigation [10] done. But once that matter morphed into a criminal investigation, that essentially is stayed. And that under 48:14-147, which is the
statute that governs how municipal police officers are
investigated in the State, there’s a 45-day rule. There

App. 95
are a litany of cases that indicate that – because if you
have sufficient information to charge, you’re supposed
to do it within 45 days. But if there is then a criminal
law investigation as to the allegations that are made,
which ultimately at some point there was an investigation into Stetzer, then that investigation gets pulled.
In fact he was prosecuted in this case and there was a
guilty finding following a Federal indictment. I mean
he’s gone, he’s not a police officer.
I mean, I would agree the City of Camden, if nothing was done with regard to either Mr. Stetzer or Mr.
Parry with regard to their actions, that would be an
issue. But here you have a criminal law prosecution,
they’re no longer police officers. I mean it’s well beyond
just even an Internal Affairs investigation. They’re
done. So, that’s the – getting into, you know, how the
investigation of this matter may have – well, first of
all, that doesn’t impact upon the alleged assault that
took place upon the plaintiff here. I mean the assault
took place. And the investigation, you know, prior to
that of Mr. Parry’s actions, if there had been complaints
by the plaintiff that he was being harassed or [11] assaulted by either of these two officers and the police
department did nothing, then I think the plaintiff ’s argument may hold some water.
But here, I mean, if the complaint was made about
the very incident that he comes to court to complain
about there wouldn’t have been a causal connection or
relationship to the fact that he engaged in this activity,
and as a result was assaulted. There’s a lack of causal
connection with regard to the incident itself, but then

App. 96
the plaintiff ’s claiming that the reason why it’s relevant is because – I guess it wasn’t really articulated
like this in the brief, but that, well, since it’s now – it’s
remained open or it wasn’t further investigated beyond
what happened, then that somehow impacts upon his
claim. And I don’t believe that it does, I don’t believe it
could establish.
THE COURT: I think what the plaintiff is saying
in their brief, in Mr. Melletz’s brief, is that there’s the
lag, a normal lag of time between the day he was arrested and in pleading guilty and then going to jail.
And Mr. Melletz’s point is had a proper investigation
been done, the city would have known early on that
this was bogus and could have prevented his incarceration long before they released him from jail.
MR. EASTLACK: Well, once again, and this is –
you know, the City I think appropriately followed the
New Jersey [12] Attorney General Guidelines. The City
has an obligation under those guidelines to turn over
any allegation that is criminal law in nature to the
prosecutor’s office. And that was done in this case.
Once the prosecutor’s office begins to investigate, the
local authorities – and there’s a lot of deposition testimony about this in this case from other individuals,
Mark Chase being one of them, and others that were
taken in this case, that talk about that process. And
once the prosecutor’s office, that was the initial entity
that had it, then it went to the Attorney General’s office and the U.S. Attorney’s office got involved, that
forecloses the local authorities from investigating that.
It says it right in the guidelines themselves, it goes to

App. 97
a higher level of authority when there’s criminal law
allegations made. And so the Camden City Police Department didn’t even have the right to, without authority and approval from the prosecutor’s office, and
frankly remanding it back, saying we’re not going to
take any action, here, you take it back, they don’t have
the authority to begin their investigation on that.
THE COURT:

All right, thank you.

Mr. Melletz, there is no – I’m having trouble seeing
the causal connection between what happened after
the arrest with the Internal Affairs investigation and
the violation of your client’s rights by Stetzer and
Parry. What’s the relationship?
[13] MR. MELLETZ: Well, your Honor, the point
that we’re making is that it shows that again the Internal Affairs people were not supervising Stetzer and
going into an investigation of them, they just were doing nothing. The letter from the Camden County Prosecutor’s Office, Mr. Chase, didn’t come until months
later. And that their only requirement was at that
point not to specifically talk, at that point talk to Parry
or Stetzer. It did not mean that they could not have put
them on desk duty. Now, as to –
THE COURT:

It wouldn’t have helped your cli-

ent.
MR. MELLETZ: That’s true, but an investigation, other than talking to them or starting to look
around may have been able to show that, gee, maybe

App. 98
there is something to all these complaints, including
Mr. Forrest.
THE COURT: But that still doesn’t help your client. He’s already been arrested by this point.
MR. MELLETZ:
He’s still in jail.

Yes, but he hasn’t gotten out.

THE COURT: Because he pled guilty. But be
that as it may, I’m going to grant the motion as to the
investigation based upon the complaint by the plaintiff
subsequent to his arrest. I just don’t see the relevance,
there’s no evidential value whatsoever as to why and
when and how his rights were violated.
Now, you also in paragraph 18 said the Camden
Police [14] Department in 2008 was not accredited.
What does that mean?
MR. MELLETZ: That they were not an accredited organization, they did not get, did not – and for
years they did not seek to become accredited. Doesn’t
mean that they can’t have a police department, but it
is just a step to show that they have tried to improve
themselves in terms of their management responsibilities.
THE COURT:

Accredited by whom?

MR. MELLETZ: There is an organization that
accredits them, I could not tell you off the top of my
head, but there is an organization that they could apply for accreditation.

App. 99
THE COURT: Well, what’s the legal impact of
them being accredited or not being accredited?
MR. MELLETZ: It is just again showing that
they were not taking into account possible management, for example, the organization – the manuals and
procedures and protocols of the Camden Police Department at that time had been taken just completely
whole by copying the Los Angeles Police Department
in 1973 procedures and policies. Then in 1993 they
added a few more from another police department. But
if they had been working to become accredited, they
would have developed their own policies and procedures.
THE COURT:

Says who? And why?

MR. MELLETZ:

I believe –

THE COURT: Why weren’t they, their own policies and [15] procedures, even if they got them from
someone else?
MR. MELLETZ: To narrow it down to make it
applicable to their organization and their city.
THE COURT: Had they been accredited, would
the Internal Affairs procedures be any different?
MR. MELLETZ:

I cannot say that specifically.

THE COURT: Then I don’t understand how it
could possibly be relevant. You can’t even tell me what
the name of the organization is, you can’t tell me it has
any legal significance whatsoever to be accredited or
not be accredited, and you can’t tell me whether it

App. 100
would have affected the Internal Affairs procedures. So
I can’t see the relevance of being accredited or not. I’ll
grant the motion as to that.
MR. MELLETZ:

Okay.

THE COURT: The use of force reports not put in
personnel file, I assume that means files with an S.
They were kept in the Internal Affairs office. I don’t
understand why that’s relevant. How did that prevent
your client’s rights or anybody’s rights from being violated?
MR. MELLETZ: If a copy was in the individual
files of the officers, there would be a showing of what
they’ve had problems in the past. And that would be a
red flag procedure.
THE COURT: But there is a copy, somebody’s
keeping a copy in Internal Affairs, right?
MR. MELLETZ:

Yes.

[16] THE COURT: So if you go to Internal Affairs
and you say, in 2008 when your client was arrested, I
want to see all the complaints about Stetzer, would you
be able to find them?
MR. MELLETZ:

Hopefully. I don’t know.

THE COURT: So how does it help to prevent the
violations of citizen rights to have another copy in another file somewhere?
MR. MELLETZ: Make sure that if someone is
looking up at Stetzer or Parry they have it, not depend

App. 101
upon them going and taking another step to go look
someplace else in the office.
THE COURT: Well, why wouldn’t your first
thought be to go to Internal Affairs to see what other
complaints there were against them? That’s where the
records are, right?
MR. MELLETZ:

Yes.

THE COURT: If the Chief was concerned about
this, the Chief at the time was concerned about this,
wouldn’t it be normal for him or her to go to Internal
Affairs and say, hey, what have you got on Stetzer, what
have you got on Parry,
MR. MELLETZ:
what you have, yes.

And look every place to see

THE COURT: I don’t know what you’d look, because I don’t know how they kept the records. So why
then would you then go to their – I don’t know how
many files they even keep on officers. Why would you
go to some other personnel file [17] then, when everything is centralized in Internal Affairs?
MR. MELLETZ: The only thing I would indicate,
your Honor, is that it’s assuming that someone’s going
to take an extra step, and that’s –
THE COURT: You’re assuming the extra step is
to go to Internal Affairs. I’m asking why isn’t the extra
step then to go to personnel files. The first initial step
would be go to Internal Affairs, if they’ve got the files,
then whatever the evil is you to seek to rectify by

App. 102
having an ability to gather all the information about a
particular police officer doesn’t exist because it’s there,
correct?
MR. MELLETZ:

Yes.

THE COURT: I’ll grant the motion as to that, the
use of force reports.
Training is out of the case.
Now, there was a sting operation three months after your client was arrested. Apparently it was unsuccessful. What happened?
MR. MELLETZ:
THE COURT:
successful?

Why was it unsuccessful?
Why was the sting operation un-

MR. MELLETZ: Because the police officers realized it for a number of reasons.
THE COURT:
Parry?

Which police officers, Stetzer and

MR. MELLETZ:
THE COURT:

Yes.

Okay.

[18] MR. MELLETZ: What the sting operation
was was Stetzer and Parry were told that there was a
van, suspicious van in a particular location and they
were sent to go there. That van was there, at first they
didn’t want to go there but they were instructed again
to go there. They went there, first thing that they do is
they look at the registration to see who it’s registered

App. 103
to, the Gloucester Township Police Department. That,
I would submit, is a red flag. But in any event, they
look inside, they find that there is money in there, and
it’s all brand new hundred dollars [sic] bills right from
a bank, which doesn’t seem logical that drug dealers
are going to be having that in their possession there.
The drugs, as I understand it, supposed drugs, were
not real drugs.
Then in addition to that, they heard a noise and
they looked up and they saw that there was a camera
taking pictures of them, a very loud camera with click,
click, click, which they heard. They immediately then
went to this building where the camera was, which was
right next to the alley, and tried to get in. The doors
were locked. That’s where the prosecutor’s officers
were and the Internal Affairs people. And that those
people inside called the police, their contact at the police department to get these, Parry and Stetzer out of
there. So they reported to them, hey, there’s – I believe
they said it was a shooting. But they reported to them,
and you are needed someplace else, go now, to get them
from [19] arresting the people who were trying to catch
them. That was the sting operation.
THE COURT: This is three months after your
client’s arrest, so what has it got to do with Internal
Affairs and preventing the violation of your client’s
rights?
MR. MELLETZ: What it has to do, your Honor, is
that it shows that the Internal Affairs could have done
something earlier. The argument is well, gee, we can’t

App. 104
do anything because it’s in the prosecutor’s hands. Part
of this was part of the prosecutor’s office that had
worked and planned with it, but some sort of sting operation could have been tried earlier. And I believe that
this, after this there wasn’t any sting operation tried
at all. And the police officers were still never taken off
duty, which I understand would not help my client who
was already in jail.
THE COURT: If your client – or if Stetzer and
Parry had been in a car accident, weren’t on duty the
day your client was arrested, it would have prevented
it too. You’re saying it shows they could have done a
sting operation earlier. Well, so what. I don’t understand how that protects your client. What’s that got to
do with Internal Affairs? Just because Internal Affairs
didn’t take them off the street, what’s your argument,
that Internal Affairs didn’t take them off the street before July 1st, 2008?
MR. MELLETZ:

Yes.

[20] THE COURT: Okay, I’ll grant that motion as
to that. I don’t see any relevance whatsoever as to the
failed sting operation three months post.
Then there’s paragraph 8, page six of defendant’s
brief involving Sergeant Joseph Wysocki, who became
in charge of Internal Affairs in May of 2009, which is
ten months post-arrest. I frankly don’t understand any
of this. These are changes that were made subsequent
to the arrest of the plaintiff, apparently. It was started
on June 23, 2009, since May of 2009. And when he
came to Internal Affairs there were 400 open cases. I

App. 105
understand that relevance, but the other ones I don’t
understand what the relevance of it is to this case. So
I don’t know what to do about that, because I don’t
even know what it means.
For instance, paragraph 8A says from 2004 to 2009
an officer had no requirement to contact the sergeant
frequently. Now the officer has to contact the sergeant
every 20 minutes. I don’t know what you’re talking
about.
Mr. Eastlack, what are you talking about, what
does that mean?
MR. EASTLACK: I’m going to let Mr. Rybeck answer this, your Honor.
THE COURT:

Yes, Mr. Rybeck.

MR. RYBECK: Your Honor, this is from the
plaintiff ’s Joint Pretrial Order that we’re trying to bar
this evidence.
[21] THE COURT: You didn’t put the paragraph
number, so I didn’t pick that up.
MR. RYBECK: I’m sorry, your Honor, it was paragraph 4 on page seven. At the end of – sub-paragraph
at the end, it was for all the above paragraphs.
THE COURT: All right. Okay. I gotcha. All right.
Now I understand what you’re talking about.
Mr. Melletz, these are all changes that were made
well after your client was arrested. So don’t we have a
Rule 407 problem again?

App. 106
MR. MELLETZ: Yes, your Honor, except for the
last one as to the 400 open cases going back to 2004,
and that – and it is the portion prior to my client’s arrest where there was no requirement to contact his supervisor on a frequent basis.
THE COURT: Well, what, how would that have
changed things if there was some – if there was a requirement, as apparently there is now, that you have
to contact the sergeant every 20 minutes, how would
that have changed what happened at the scene on July
1st, 2008? The sergeant was there.
MR. MELLETZ:

He came afterwards, yes.

THE COURT: Right. And, you know, they all lied,
there’s no question they lied. How would that change
what happened? Because they would have been required to contact Sergeant Morris, who was a coconspirator and went to prison, [22] too.
MR. MELLETZ:

Yes.

THE COURT: All right. Well, other than the last
part about the 400 open cases, I’m going to grant that
motion.
All right. The next one is, this is the defendant’s
motion number 165 to bar the testimony of Arturo
Venegas, V-E-N-E-G-A-S. And he was not a sworn law
enforcement officer. He says he had no role whatsoever
in Internal Affairs, he was the supersession executive
who was brought in on August 1st of 2006, presumably
by the State or county, I don’t know who brought him
in. But apparently plaintiff wants him to testify about

App. 107
the final report of the Attorney General’s Advisory
Commission on Camden Public Safety.
I’m not sure what you, Mr. Melletz, exactly what –
and this comes up in a couple more of these motions,
this September 2006 final report of the Attorney General’s Advisory Commission. What is it about this that
you think is relevant to your claim in this case that the
Internal Affairs failed to properly do its job and your
client’s rights ended up being violated?
MR. MELLETZ: The report indicates there were
problems of management and accountability. No evaluations were processed of officers for example, no, no
standards of accountability as to – including the Internal Affairs disciplinary matters.
[23] THE COURT: Where does it say that in the
report, please? What specific parts of the report do you
think are relevant?
MR. MELLETZ:
Honor?
THE COURT:

Bear with me a moment, your

Sure.
(Brief pause)

MR. MELLETZ: Your Honor, the, what we are referring to here is – bear with me a moment?
(Brief pause)
MR. MELLETZ: That the report indicates that
there are deficiencies in the accountability and that
that would include, though it doesn’t specifically say

App. 108
Internal Affairs, it makes it clear that it’s throughout
the management of the police department.
THE COURT:

Well, be more specific.

MR. MELLETZ:

Okay.

THE COURT: There is no mention of Internal
Affairs in this entire report.
MR. MELLETZ:

That is correct, your Honor.

THE COURT: And the purpose of the report, Attorney General Harvey set this commission up to identify those structural and organizational changes the
department would have to make to reduce violence and
serious crimes in the city.
MR. MELLETZ: Again, have accountability, as
they [24] call it, and the accountability would be
through the Internal Affairs.
THE COURT: Give me a page and paragraph
that you are specifically referring to that you think impacts the workings of Internal Affairs.
MR. MELLETZ: Page ten. The report should –
this is referring to a report from the prosecutor to the
Attorney General each year. The report should include
analysis of crime statistics and such other factors as
will permit the Attorney General to make an informed
decision on when outside supervision of a police department should be discontinued. The whole idea of
this commission was to see when they were going to be
able to get, and these are my words, not theirs, their
act together to eliminate supervision.

App. 109
THE COURT: Well unfortunately we can’t introduce your words to the jury. The question is what’s the
relevance of the words of this report. And reporting the
statistics to the Attorney General doesn’t seem to me
to be implicating anything that has to do with Internal
Affairs.
(Brief pause)
MR. MELLETZ: That would be the only thing,
your Honor. It does not mention specifically Internal
Affairs.
THE COURT: Well, I’m hard pressed, then, to
understand why there’s any relevance whatsoever to
this report, other than to say that Camden had problems, Camden [25] Police had problems. Well, that’s
well known. The question before the Court and before
the jury is going to be specifically procedures utilized
by Internal Affairs on whether or not failure to do certain things violated the plaintiff ’s constitutional
rights. And this report, as far as I can tell by reading
it, adds nothing to that. There’s no relevance, and any
minimal relevancy it might have is greatly outweighed
by unfair prejudice because they get into all kinds of
things about what’s going on with the police department, the people, you know, continue to reduce the
number of organizational silos, require all field officers
to successfully complete training in problem solving
police technique, vest the district commanders, require
district commanders to successfully complete sensitivity and cultural training. Amend the 28-day plan. Improve internal communications. Reorganize and

App. 110
strengthen the comp, c-o-m-p, stat, s-t-a-t, process. I
don’t even know what that is. And all that kind of stuff.
So, I’m going to grant that motion.
MR. EASTLACK:
question?
THE COURT:

Your Honor, could I just ask a

Yes.

MR. EASTLACK: Is it the Court’s rule that Mr.
Venegas’ testimony then is not relevant and is barred?
THE COURT:
tion.

Well, that’s what was in your mo-

[26] MR. EASTLACK: Right, that’s what we had
asked because he was going to testify, number one,
about Internal Affairs, which he said he didn’t know
anything about. And secondly, to testify about this report. So I don’t know of anything else that Mr. Venegas
was going to offer, so . . .
THE COURT: I don’t know either, but that motion as to those areas is certainly granted.
MR. EASTLACK:
Honor.

All right. Thank you, your

THE COURT: We have the next one is defendant’s number 166, bar certain Internal Affairs records.
This whole issue of Internal Affairs records is perplexing to me because I have so little information about
them. But we seem to be focused on five things.
And these are Internal Affairs records number 07-211,

App. 111
08-295 – I’m sorry, maybe 271, I may have miswritten
that. Hang on a minute.
07-211, this is Mr., I guess it’s Whitley, although in
plaintiff ’s brief it’s Whitely and Whitley, but we’ll see.
Apparently sometime in August of 2007, Internal Affairs was notified that a lawyer apparently representing Mr. Whitley wanted the personnel records of Parry
and Stetzer in order to defend the case against Mr.
Whitley, whatever case it is, I have no idea. What happened after that, I have no idea. Why that’s relevant,
I’m not sure, because I’m not sure what the complaints
about Mr. Whitley were in this case.
What were the complaints of Mr. Whitley, Mr.
Melletz?
[27] MR. MELLETZ:

If I may, your Honor?

(Brief pause)
MR. MELLETZ: Mr. Whitley, your Honor, had
been stopped and he contended that he had been
planted the drugs, that he did not have any drugs on
him. Specifically, your Honor –
THE COURT: Did he file a complaint with Internal Affairs that Stetzer and/or Parry planted drugs on
him?
MR. MELLETZ: I believe so, your Honor, as is
part of what was submitted, that’s Bates stamp 14330,
14331, 14332. That was the major incident report that
was involved with it.

App. 112
THE COURT:
your brief.

And you don’t reference that in

MR. MELLETZ:
THE COURT:

I apologize, your Honor.

What happened?

MR. MELLETZ: He was accused of, supposedly
observed selling drugs and having drugs in his pocket.
THE COURT:

And?

MR. MELLETZ:

And he denies that.

THE COURT: Well, didn’t he pled [sic] guilty?
When I read the defendant’s brief, he pled guilty.
MR. MELLETZ:

Yes.

THE COURT: So he pleads guilty, and then what
happens to the IA complaint?
MR. MELLETZ: Then they did not do anything
in terms [28] of this particular IA file number, 07-211.
THE COURT: Right. What should they have
done if the guy pled guilty?
MR. MELLETZ: Well, your Honor, I believe he
submitted a complaint to the police – to Internal Affairs, and I submit that even though you’re pleading
guilty, they should investigate, especially if they have
other complaints concerning them.
THE COURT: I don’t understand why they
should. If the complainant/defendant pleads guilty to
possession of narcotics after having made a report that

App. 113
they were planted on him, and he goes into court under
oath and says I had the drugs and I’m guilty, tell me
why Internal Affairs should continue that investigation.
MR. MELLETZ: Not unheard of, unfortunately
it’s not unusual for people to plead guilty when they’re
not, just to take a plea bargain.
THE COURT: My question is why should Internal Affairs then continue to – I mean are you suggesting they have a duty to independently investigate this
case even after a guilty plea?
MR. MELLETZ: If they have several complaints
over periods of time about the same police officers, then
yes.
THE COURT: That’s not exactly the question I
asked you. You’re telling me Internal Affairs has an obligation to [29] investigate a police officer against
whom there are several different complaints over a period of time. I’m not suggesting that they shouldn’t, I’m
suggesting if one of the complainants pleads guilty and
says I had the drugs after having told Internal Affairs
I didn’t have any drugs, what’s the duty on the part of
Internal Affairs to investigate further? Is there some
Attorney General Guideline, is there some standard in
the business of Internal Affairs investigations, is there
some statute or regulation that says you should continue your investigation?
MR. MELLETZ: No, there is no such specific regulation. But if there is a number of complaints

App. 114
concerning the same police officers, and that these
complaints seem to be similar, then maybe they should
– not maybe. We contend that they should have reopened the investigation. The investigation was not
very thorough.
THE COURT: And done what exactly? Once the
defendant, the complainant’s pled guilty, what do you
do now?
MR. MELLETZ: When you see other complaints,
you say hey, I’m going to start and look over again with
this first one, and maybe we should talk some more to
people.
THE COURT: We should talk to the complainant
and tell him to withdraw his guilty plea?
MR. MELLETZ: No, talk to the complainant and
say why did you plead guilty? Which was true, were
you lying about [30] the guilty plea, or are you giving
us a phony story when you speak to us?
THE COURT:
lice?

And that’s the obligation of the po-

MR. MELLETZ: I think it’s the obligation of Internal Affairs, not on the one investigation, but when
there were other investigations, other complaints
about the same police officers.
THE COURT: Well, I am unaware of any law
that imposes a duty on a police department to question
a complainant/defendant who has pled guilty in a court

App. 115
of law under oath, and question him and suggest to
him that he shouldn’t have.
MR. MELLETZ: But my question – my point,
your Honor, is prior to his having pled guilty, we contend that the investigation was inadequate. Prior to
the – so the fact that he subsequently pled guilty, okay,
stop that investigation, but they weren’t doing anything before.
THE COURT:
fore?

What should they have done be-

MR. MELLETZ: They should have investigated,
they should have talked to everybody.
THE COURT:

What did they do?

MR. MELLETZ: As a practical matter, as far as
we could see, all they did was talk to the complainant.
THE COURT: Do you know what they did? Does
anybody have the facts as to what Internal Affairs did
with [31] Mr. Whitley’s, assuming he filed a complaint?
MR. EASTLACK: Judge, I do. It’s attached to our
brief. They did speak to the complainant, they did
gather the police reports, they did investigate the matter. As a matter of fact, it was, the investigation was
performed by Sergeant Robert Turner. He investigated
the matter, he gathered all the reports, and they found
out actually one of the people that was mentioned by
Mr. Whitley actually, if that name was actually true
that was provided by him, that his name could not be
found and it didn’t exist as being somebody else who

App. 116
also supposedly had – was the subject of a wrongful
arrest by Mr. Stetzer. They looked through the files and
didn’t find any such person. So, there was an investigation and it was found that it was unfounded as a result of pleading guilty.
MR. RYBECK: Judge, there was never a complaint, per se, submitted by Mr. Whitley. They got the
motion to disclose the personnel records to the Office
of the Public Defender. Internal Affairs took it upon
themselves to investigate the matter based upon that
motion.
MR. EASTLACK: Yes, Mr. Whitley did not actually initiate it himself, the Internal Affairs Department initiated it on their own after they received
notice that there was a motion that was made for this,
and they then promptly investigated it.
THE COURT: All right, let’s go to 08-295, which
is [32] Antwyan, A-N-T-W-Y-A-N, Rolax, R-O-L-A-X. I
don’t know when he made the complaint, but apparently he complained he was falsely arrested by Parry
and Stetzer, and the arrest having taken place on December 27, 2007.
MR. RYBECK: Mr. Rolax complained on December 1st, 2009, your Honor.
THE COURT: Okay. So if he didn’t complain, Mr.
Melletz, until 17 months after your client was arrested,
how is this notice to Internal Affairs that there’s a
problem?
MR. MELLETZ:

It isn’t, your Honor.

App. 117
THE COURT: All right. So I don’t see any relevance to Mr. Rolax’s case.
08-301. Something about a Dorothy Johnson? She
was interviewed August 26, 2008 by Internal Affairs.
And she made a complaint that Stetzer planted drugs
on someone else?
MR. RYBECK: Yes, your Honor. They were actually interviewing Ms. Johnson about a different matter
and she brought up the issue herself.
THE COURT: This again is well after the plaintiff had been arrested, correct? So how is this notice to
Internal Affairs that there’s a problem with Mr. Stetzer
planting drugs on individuals if this information didn’t
come to the attention of Internal Affairs until seven
weeks after the arrest?
MR. MELLETZ: But, your Honor, the incidents
occurred [33] prior to my client. So that if when they
received the information, the question is whether they
should have conducted an investigation concerning my
client’s complaint.
THE COURT: Seven weeks after your client is
arrested, someone volunteers to Internal Affairs that
Stetzer planted drugs on someone else. How does that
change the way Internal Affairs dealt with Stetzer and
Parry before your client’s arrest?
MR. MELLETZ: Not before my client’s arrest,
your Honor. Before my client’s release, while he was in
jail.

App. 118
THE COURT: All right. I don’t see the relevance
of that. That will be granted.
08-137, Chris Dixon, D-I-X-O-N. And this is a May
28, 2008 complaint by Chris Dixon. This is a complaint
against Stetzer and Galiazzi, who is not a defendant in
the criminal or civil case. And what happened to that?
MR. RYBECK: Your Honor, in the brief of complaints submitted in the Joint Final Pretrial Order the
entire file was listed by the plaintiff.
THE COURT:
though?

Do you know what happened

MR. RYBECK: Off the top of my head I do not
recall, your Honor. This was a complaint about the individual wrongfully being charged with loitering for
CDS. There wasn’t an allegation that they were planting drugs on him or excessive force, it was just the issuance of a wrongful [34] ticket, essentially.
THE COURT: All right. Mr. Melletz, what’s this
got to do with planting drugs or excessive force? Why
should Internal Affairs getting a complaint from a citizen that a police officer wrongfully arrested someone
on some ordinance violation have alerted Internal Affairs that there was a problem with this officer?
MR. MELLETZ:
assment of –

Involving the question of har-

THE COURT: What do you mean harassment?
You say harassment in your brief. What did the complainant actually say happened?

App. 119
MR. MELLETZ:

Bear with me, your Honor?

(Brief pause.)
MR. RYBECK: Your Honor, Exhibit 4 of our motion, it’s the third to last page of the complaint.
MR. MELLETZ: This one is the Exhibit 4. There
he contended that Mr. Dixon ordered some food and
purchased a beverage to drink while waiting on food.
While waiting on the food, several young guys came
into the store, laughing and joking out loud. That’s the
police report – it’s the person making the report’s brief
and complaint. What he was contending was he was
being harassed by the police officer.
THE COURT: Well, it has nothing to do with
planting drugs or . . .
[35] MR. MELLETZ:
THE COURT:
that motion.

No.

All right. Well, I’m going to grant

Now, the last one is 08-222, and this is Vivette, VI-V-E-T-T-E, Skinner, something involving a juvenile
son, but it was August 12th of 2008. Or August 2nd,
2008, which is after the arrest. So how does this put
Internal Affairs and the City of Camden on notice that
there’s a problem? Assuming it had anything to do with
this kind of a problem that we’re talking about.
MR. MELLETZ: This, your Honor, would be
again not to stop the arrest, because it came after the
arrest, but shortly after the arrest, and would be the
prosecution and the, you know, the keeping him in jail

App. 120
pending bond and bail. And the incident occurred of
stopping a person, accusing him of selling illegal drugs.
And the last page of volume five, or rather item 5 of
their brief has that page of the complaint.
THE COURT:
granted.

Well, for similar reasons that’s

Now, the statistics. Mr. Melletz, do you have somewhere in the Pretrial Order somewhere the precise statistics that you want to try to use in this trial?
MR. MELLETZ:

Yes, your Honor.

THE COURT: Where is it in the Pretrial Order?
I’m not suggesting it’s not there, I just can’t find it.
MR. MELLETZ:

The Pretrial Order?

[36] THE COURT:

Yeah.

MR. MELLETZ: Unfortunately, your Honor,
when I grabbed all the stuff to come here today, that
was the one thing I didn’t bring.
THE COURT: Well, how about if I give you a
copy and you can just look at it and tell me where it is
in the Pretrial Order, because I’m having difficulty understanding what the statistics are. Both sides are arguing about statistics, and I want to get what the
precise statistics are that you plan to introduce.
(Brief pause)
MR. RYBECK: Judge, I don’t believe I saw in the
plaintiff ’s exhibits any actual documents, but there

App. 121
was testimony from some certain witnesses that they
were questioned about, that’s why I made this motion.
MR. MELLETZ: Yes, your Honor. What they’re
referring to is statistical reports and testimony from
Lieutenant Sosinavage, S-O-S-I-N-A-V-A-G-E. I
THE COURT: I understand that, Mr. Melletz.
My question is, where is it in the Pretrial Order? I don’t
find a spot where it lists for me exactly what the numbers are that you want the jury to hear.
MR. MELLETZ: Number 19, page five. 2005,
there were 96, I can continue reading or . . .
THE COURT:

No, that’s good. Thank you.

[37] MR. MELLETZ: Okay. And maybe another
paragraph, I stopped there.
THE COURT: All right. 22 also, 19 and 22. 19
says in 2005 there were 96 new excessive force cases
plus 167 carryover cases, for a total of 263 cases. None
were sustained, 28 exonerated, 42 not sustained and
six unfounded. Total IA cases were 861, in 2006 there
were 78 more excessive force cases and total new cases
of 350.
Paragraph 22, in 2004/2005 no complaints in IA
were sustained on serious charges. In 2006, one was
sustained. In 2007, five were sustained. In 2008, one
was sustained. In these five years, out of 622 serious
complaints, seven were sustained. This is approximately 1 percent.

App. 122
Okay. You know, in the Beck case, which is what
you’re relying on, there were a heck of a lot more that
involved the officers, the specific officers. But what do
juries do with this information, Mr. Melletz?
MR. MELLETZ: Well, I believe, your Honor, the
jury can consider that information with all the other
testimony of the trial and determine whether there
were adequate investigations, whether there were –
whether the Internal Affairs was supervising what
was going on.
THE COURT: Compared to what? What’s the
jury to compare it to, to come to the conclusion or reach
the inference you want them to reach, that the investigations must [38] have been inadequate if these are
the numbers?
MR. MELLETZ: I would submit, your Honor,
that they, after hearing all the testimony, can, you
know, comparing to what would be within their reasonable belief as jurors, fact finders. I don’t think that it
needs to be a particular standard that says, hey, they
have to have so many find guilty or not guilty.
THE COURT: How do the juries have any
knowledge whatsoever as to what’s appropriate for Internal Affairs investigations in a police department in
New Jersey?
MR. MELLETZ:

Well, your Honor, I submit –

THE COURT: Do you have testimony from somebody about that, some police officer? I know you’re going to have an expert, but are you going to have

App. 123
testimony from a police officer as to how this works,
the system works?
MR. MELLETZ: Yes, it was my intention to have
the Internal Affairs people describe how their system
works and what they were doing, how they were backlogged and how they were understaffed and that they
needed to have more people.
THE COURT: How does the jury draw the inference that there should have been more disciplinary action as a result of all these filings of the complaints?
Don’t they have to know what the complaints were
about? Don’t they have to know, you know, whether
they were unfounded, whether or not they should have
been unfounded? Don’t they have to know that? I mean
[39] how are they going to evaluate that there were
certain complaints that the Internal Affairs should
have done something about but didn’t, how do they
evaluate that?
MR. MELLETZ: Well, I think that in looking at
the statistics and how things had been and listening to
the police officers explaining what the culture was and
the atmosphere of the – and how they were understaffed, that – and what they did, what they didn’t do,
that they can come to a conclusion, their own conclusion. And hearing the testimony of my client as to what
happened to him with his excessive force situation.
THE COURT:
pened to him?

What do you mean what hap-

App. 124
MR. MELLETZ: In terms of being hit and beaten
by these two officers.
THE COURT:
sponse, please?

Mr. Eastlack, what’s your re-

MR. EASTLACK:
THE COURT:

Judge, Mr. Rybeck.

Mr. Rybeck, your response?

MR. RYBECK: This is exactly the type of situation that Judge Hillman addressed in the Berman case,
your Honor, where people file complaints for any number of reasons. Without going into prior complaints and
why they should or should not have been sustained, I
outlined this on page seven and eight of my brief.
THE COURT:

Right.

MR. RYBECK: Without going into the – all right,
[40] there were these case [sic]. Well, can you explain
why one of them should have been sustained. The
plaintiff can’t do that because your Honor just barred
the only other Internal Affairs cases listed in the Joint
Final Pretrial Order. There’s no other cases going to be
exhibits that can show that Internal Affairs should
have sustained more cases.
THE COURT: Well, I think the plaintiff ’s point
is a little more subtle than that. Plaintiff ’s point is
they weren’t doing anything, not that they just were
finding these complaints unfounded when they should
have been sustained. They weren’t doing anything because of the backlog. There’s so many cases they’re

App. 125
overwhelmed and don’t have enough people, they
never get around to investigating most of them.
MR. RYBECK: There’s no evidence that they
didn’t investigate these complaints. They were eventually investigated, your Honor.
THE COURT: You have hundreds of cases carried over to the next year, by definition they weren’t
investigated, right?
MR. RYBECK:
Honor.

Eventually they were, your

THE COURT: I don’t know, according to the statistics he cites, they weren’t.
MR. RYBECK: Well, with the amount of complaints that come in a year, if you had 400 complaints
for that year and they investigate say 400, they’re going to keep having new [41] cases and keep having to
investigate them, your Honor. It’s not like they’re never
getting to these cases. And without saying that, okay,
there was a delay in investigating these cases, plaintiff
will have to show that somehow that was the driving
force behind his arrest and the plaintiff can’t draw that
causal connection, your Honor.
THE COURT: Well, I don’t know whether he can
or not, but the statistics align. I’m going to deny your
motion and permit the plaintiff to introduce evidence
of the backlog and the inability of the Internal Affairs
in the years preceding the arrest of the plaintiff to deal
with the backlog and clear those cases one way or the

App. 126
other. You made your point about the causal connection, but we’ll see what the testimony is.
All right. The next one is, this is the testimony –
defendant’s motion to bar the testimony of Benjamin
Vautier, V-A-U-T-I-E-R, 167. Objection is 198.
And Mr. Melletz, this is a guy who was a cop, I
don’t know if he still is, or what happened.
MR. MELLETZ:

No, he’s not.

THE COURT: He said some things in his deposition testimony about seeing Stetzer, number one, at
parties draw his gun and claimed to be a drug dealer
from Camden. I’m not sure what that’s got to do with
any of this. And that he thinks he saw – he saw Stetzer
had seized drugs but hadn’t turned them in. He complained about it but nothing was done. [42] But he
didn’t really know whether Stetzer had turned in the
drugs or not the next day. He’s a little equivocal on
that. But last but not least, he admits he lied to Internal Affairs about another matter, so I’m not sure why
that even helps you. Why do you think this even helps
you? What does this get you, this testimony with Vautier?
MR. MELLETZ: Because he had – he went and
spoke to an Internal Affairs officer to make a complaint
about Stetzer, and that nothing was done about it. And
that was before my client was arrested.
THE COURT: Well, Question: Do you remember whether you told Turner, who was the Internal

App. 127
Affairs investigator, about your suspicions that Stetzer
was stealing drugs?
Answer: I did say that, I did mention that I saw
him take drugs at the end of the day. And he would say
that he would turn them in tomorrow. And I told
Turner my problem was tomorrow never came.
This was in 2007. And then he had this stuff about
the writing on the walls and all that, which is irrelevant. So . . .
MR. RYBECK: Your Honor, Mr. Vautier says he
doesn’t know if tomorrow never came, he had no idea
whether the drugs were turned in.
THE COURT: No, I know. He says that later. So,
but that’s what you want him to say, is that he told Internal Affairs that Stetzer didn’t turn the drugs in,
said he was [43] going to turn them in tomorrow,
doesn’t know whether tomorrow ever came, but not really sure whether he did or not. That’s what you want
him to testify to?
MR. MELLETZ: And I believe, your Honor, that
he would testify to the fact that he saw Stetzer have
these bags, yes. And he didn’t – he saw – he knew he
didn’t turn them in.
THE COURT:

All right. That’s it.

MR. MELLETZ:

Well –

THE COURT: Even though he’s going to say he
lied to Internal Affairs about another matter, and even

App. 128
though he’s going to say he’s not really sure whether
he turned them in or not, you want him to testify.
MR. MELLETZ:
THE COURT:

Yes.

Okay.

MR. EASTLACK: Judge, I still think that this
gets to an area of, you know, talking about a possibility,
not some probability.
Also, on May 18 of 2008 Vautier does indicate in
his deposition testimony that he was contacted by Internal Affair Detective Vincent McCalla about the
Stetzer issue that he had complained of, and McCalla
advised Vautier that Stetzer’s paperwork was squared
away.
THE COURT:

Right.

MR. EASTLACK: So I don’t – it’s just beyond – I
[44] don’t know what Mr. Melletz may want him to say,
but if it doesn’t have the probative value that would
supply to this jury about whether or not Stetzer was
actually taking drugs, and assuming that, let’s say, the
Internal Affairs just did nothing with this, it would
still be problematic because he doesn’t know. So, I don’t
– I think the prejudice outweighs the probative value
because, number one, he doesn’t know. He says tomorrow never came, but then acknowledges that it was investigated by Internal Affairs, who said Stetzer’s
paperwork was in fact squared away. So . . .
THE COURT:

Doesn’t mean it was.

MR. EASTLACK:

No, I understand.

App. 129
THE COURT:
okay.

Doesn’t mean that everything was

MR. EASTLACK: No, it doesn’t mean everything
was okay, but it does mean that it was investigated by
Internal Affairs. It doesn’t mean nothing was done by
Internal Affairs.
THE COURT: Well, you can certainly raise that
point. I’m going to deny the motion. It’s going to be for
the jury to decide whether they believe him. He does
say that Stetzer took drugs, had packages of drugs,
didn’t turn them in that day. He believes they weren’t
turned in, although he’s not sure. The jury’s going to
have to decide whether to believe that or not.
MR. RYBECK: Judge, there’s one more issue if I
could [45] ask the Court to address? Regarding an incident where Mr. Stetzer – I mean Mr. Vautier says he
sees Stetzer – Stetzer gets the sting operation with the
supervisor, and they say – this is what plaintiff put in
his brief, I just want this issue to be addressed. And he
says, like 20 bags were put in the house and then he
only took back 12 in the car.
THE COURT:

Right.

MR. RYBECK: In his deposition Mr. Vautier testified he never complained – told Internal Affairs about
that.
THE COURT:

Right.

App. 130
MR. RYBECK: So if Internal Affairs never heard
about that, I don’t think he should be allowed to say
that to the jury.
THE COURT: He can’t be, that’s why I focused
just on what I focused on.
MR. RYBECK:
I apologize.

Okay. I just want that to be clear.

THE COURT: He can’t talk about the writing on
the walls and all that other – pulling a gun out at a
party and all that kind of stuff.
MR. RYBECK:
THE COURT:
pal court judge.

Thank you, your Honor.
Christine Tucker. Now a munici-

MR. EASTLACK:

She is, your Honor.

THE COURT: And she – I’m not sure why you’d
want [46] her to testify. She can’t give any opinion testimony as a sitting judge, but she can certainly testify
about facts. She’s a former business administrator, she
had nothing to do with Internal Affairs.
Mr. Melletz, what exactly do you expect her to say,
she signed – in your brief you say she signed off on all
disciplinary matters. That the city police were under
the control of the Camden County Prosecutor’s Office
supersession order and there was a backlog of Internal
Affairs cases. What do the first two things have to do
with anything?

App. 131
MR. MELLETZ: She was the business administrator, a person who was hiring, firing, disciplinarian
in an appeal position. And that she would be able to
explain the history of the problems of the police department in terms of supersession and investigation.
THE COURT: What do the problems have to do
with the Internal Affairs?
MR. MELLETZ: Well, part of them I would submit were, again, this atmosphere of what was going on.
She did not have anything to do with Internal Affairs,
except if those people, for example the deputy chief, one
of the deputy chiefs was a complainant about Internal
Affairs to that person, and she took care of that in the
sense that she was the administrative law officer.
THE COURT:
and [47] Parry?
MR. MELLETZ:

What’s it got to do with Stetzer
It doesn’t.

THE COURT: I’m going to grant the motion. She
doesn’t have any relevant information.
The next one is defendant’s motion 169 to bar the
testimony of Kevin Blevins, B-L-E-V-I-N-S. Apparently
nobody can find him. He witnessed the assault?
MR. MELLETZ: Yes, your Honor. And as I advised counsel this morning, by coincidence, lucky or
whatever, we managed to find him, we think, Friday
afternoon. I had given up, to be quite bluntly, I had
given up, and we discovered that we had been using
the wrong first name. Apparently he has a first and

App. 132
middle name, and we had been using – looking for
Kevin, and there’s a Kennedy Blevins who is now in
the Burlington County jail. And my associate had to be
in Mount Holly this afternoon and she was going to
stop there and find out if this is the same Kevin – Kennedy Blevins who we believe it would be.
THE COURT: Well, if it’s the same guy, you’ll let
Mr. Eastlack know and he’ll take his deposition.
If you want.
MR. EASTLACK:
THE COURT:
prejudice.

We will, Judge.

So that motion is denied without

All right. Defendant’s motion to bar the testimony
of [48] the Assistant Prosecutor Mark Chase about a
2005 investigation of Stetzer, that’s number 170. And
then there’s a 201 came in. I’m really not sure what the
plaintiff wants to use Mr. Chase for, I don’t even know
if he’s a still an assistant prosecutor. But apparently
there was an informant for another police agency, Evesham Police Department, who said that Stetzer was in
a bar in Waterford asking for drugs. So they set up an
investigation, as far as I can determine. But this informant could not identify the picture of Mr. Stetzer, so
they closed – the Camden County Prosecutor’s Office
closed the investigation. And I don’t know what happened after that.
How is any of this relevant, Mr. Melletz? What’s
this got to do with Internal Affairs in Camden?

App. 133
MR. MELLETZ: Again, your Honor, prior to our
client being arrested there was this concern or complaint about one of the officers, and that it was never
resolved or investigated adequately, we contend. And
what his testimony would be is, A, there was this report –
THE COURT:
whom?

Not adequately investigated by

MR. MELLETZ: It was remanded to the – came
back to the Internal Affairs for administrative investigation.
THE COURT: And what happened? When did
that happen and what happened as a result?
MR. MELLETZ: Well, it was a 2005 investigation and it was remanded for administrative investigation, and we don’t [49] have any records to show it, it’s
not on the card, unless it’s one of those numbers that I
don’t recognize on his index card.
THE COURT: Again, I’m not sure how you prove
this has anything to do with Internal Affairs. How do
you connect this with Internal Affairs when the prosecutor’s office closes it out because the informant can’t
even identify Stetzer’s picture as the person seeking
drugs at this bar, and then we don’t know what happens after that?
MR. MELLETZ: All we know is it was sent back
for administrative investigation.

App. 134
THE COURT: I don’t even know what that
means. Do you know what that means?
MR. MELLETZ: My understanding is that Internal Affairs would have been able to investigate because
it was now a criminal matter.
THE COURT: What do you mean it was now a
criminal matter? It wasn’t a criminal matter.
MR. MELLETZ: The county prosecutor would
only be involved if there were investigations of police
officers involving criminal complaints.
THE COURT:

Right.

MR. MELLETZ: If it was not a criminal complaint, then it would be sent back to the Internal Affairs.
THE COURT: Okay. Let’s assume that happened
here, and that’s a big assumption because I’m not sure
what the [50] evidence is going to show. Let’s assume
that happened, and at some point somebody in Internal Affairs gets something from the prosecutor’s office
saying we closed the criminal investigation, and what
else it says, who knows. We don’t know what happens
next, do we?
MR. MELLETZ: No, but the fact that it’s not
shown on any of the Internal Affairs cards for either
Stetzer or Parry would indicate, hey, maybe nothing
was happening, and again, that was part of the problem back before 2008.

App. 135
THE COURT: Well, couldn’t it also indicate that
they never even got the referral?
MR. MELLETZ: They should have. It was sent
back for administrative, it should have gone to the Internal Affairs. That’s my understanding.
THE COURT: Well, a lot of things should have
happened. I’m not interested in what should have happened, I’m interested in the facts. What actually happened. You’re going to have to establish what
happened, and that Internal Affairs actually got the
referral. I mean that’s step number one. And then we
have to know what Internal Affairs did with it. That’s
step number two. This is before it even becomes relevant in the slightest bit. If you can demonstrate to me
what – you know, that these things happened, that
they got the referral and they did nothing, then I’ll listen to you. But in the meantime I’m going to grant the
motion.
[51] The next one is 171, the offset argument.
Plaintiff apparently got a settlement from the State of
New Jersey, $32,908.45. The defendant argues that
they’re entitled to an offset in this. Neither side even
cites Title 52 section 4C-2b, which says, “shall be offset
by any award of damages awarded under this act.” But
I don’t need to decide that issue of the offset. We’ll see
if there’s a – if there’s a verdict for the plaintiff, we’ll
deal with it then. But for now that’s denied without
prejudice.
Defense motion 176, bar plaintiff from testifying
as to medical diagnosis. Mr. Melletz, exactly what is

App. 136
your client going to say about his injuries as a result of
that beating, the alleged beating?
MR. MELLETZ: The beating, your Honor, he’s
going to say while he was beating, he peed himself.
THE COURT:

That’s it?

MR. MELLETZ: Well, in terms of what they’re
arguing, he’s also going to be testifying about how he
was bleeding –
THE COURT: That’s what I want to know, exactly what’s he going to say?
MR. MELLETZ: He’s going to say that he was
bleeding from his head around his ear. That he was
dragged down the steps, he was beaten with flashlight
and also by fists.
THE COURT:

Okay.

MR. MELLETZ: He was unconscious, came back
to be [52] conscious a period of time, then dragged
down. The police officers indicated while they were
beating him, stop resisting. He said I’m not resisting,
how can I be resisting? You’re on top of me. They drag
him down, scraping his knees, bleeding from his knees.
They put him in the car or truck of Sergeant Morris,
took him to the, Morris took him to a parking lot and
waited there for about 20 minutes. And he kept saying
to Sergeant Morris, take me to the hospital, take me to
the hospital, I’m bleeding. And Morris indicated to him,
my cops don’t plant drugs. My client says who’s talking

App. 137
about – I didn’t say a word about drugs to you. I’m
bleeding, will you please take me to the hospital.
Finally Parry and Stetzer come over, they take
him to the hospital. On the way to the hospital they tell
him, if you tell anybody that we struck you, that’s how
you got injured, then we’re going to put all the drugs
that we got at that house on you. And they stood next
to him when the nurse asked him what happened, and
he did not tell the nurse the truth.
THE COURT:

When did he urinate himself ?

MR. MELLETZ:
the location.

When he was being beaten at

THE COURT: Okay. So he’s bleeding and he’s
urinating himself, bumps, bruises, I mean . . .
MR. MELLETZ:

Yes.

[53] THE COURT:

Okay. Fine. Thank you.

Why can’t he be able to testify to urinating himself ?
MR. RYBECK: I just don’t want him to say that,
I had broken bones, I had this medical diagnosis, something of that nature. He can say I was getting hit and
I urinated myself, that’s fine, he can say what actually
happened. We don’t want any kind of medical actual
diagnosis from him.
THE COURT:

He won’t.

App. 138
All right. That motion is denied. He can testify as
to his physical symptoms including urinating himself
during the course of the alleged beating.
Defendant’s motion 177, this again gets to the recommendations of the advisory commission, and this is
the testimony of Edwin Hargis, H-A-R-G-I-S. And
again,
Mr. Melletz, you can tell me, but what is it in this
report that is relevant to your claims in this case?
MR. MELLETZ: Our contention, your Honor, is
that the blue ribbon panel recommended elimination
of police tactics that are ineffective and offensive to citizens. And one such policy involved officers wearing ski
masks they gave as an example in the report. That the
recommendation that complaints were filed about misconduct of officers and ineffective oversight.
THE COURT:

Well –

MR. MELLETZ: And the department charged
with that [54] investigation is the Internal Affairs.
THE COURT: Well, you lifted the actual quote a
little bit out of context. The actual quote at page 12 of
this report is that, for instance, the department has
permitted some undercover officers to wear modified
ski masks to conceal their identity while participating
in narcotics raids. Let’s assume that’s a policy. Here’s
the sentence in question, and this is what is not – this
is what’s quoted out of context. Because what the real
sentence says is, community members claim that some
of those officers, unrestrained by effective oversight

App. 139
and supervision and incapable of being recognized,
have engaged in unacceptable behavior and even misconduct. It’s not a conclusion of the commission, that’s
a statement of some community members telling, apparently in a hearing or something, the members of the
panel, of this commission, that this is going on.
Now, how does that translate into better Internal
Affairs procedures, that the city needs better Internal
Affairs procedures?
MR. MELLETZ: Well, the conclusion of the commission was to eliminate the use of policing tactics, and
I’m reading from above that paragraph, eliminate the
use of policing tactics that are ineffective and offensive
to the community. In consultation with the community
at large, develop alternative tactics that effectively
combat crime and [55] disorder, while building and
preserving community support, trust and confidence.
And our contention, your Honor, is that since Internal Affairs is in charge of the disciplining of the officers violating rules and regulations, and
investigating complaints of the community against police officers, that it would necessarily be involving Internal Affairs supervision.
THE COURT: So you want the jury to know that
the part that begins with community members claim,
to the end of that paragraph on page 12. Those last two
sentences.
MR. MELLETZ:

Yes.

App. 140
THE COURT: Okay. Doesn’t this seem to implicate the oversight by Internal Affairs, isn’t this some
evidence that the city is on notice that better oversight
is needed to combat unacceptable behavior and misconduct?
MR. EASTLACK: Judge, I – what it’s speaking to
is what certain members of the community, unnamed,
supposedly know about or believe are problems for the
community for how police – what the police tactics are
in interdicting crime, and interdicting specifically drug
crime. The fact that some community members complained that – about the police tactics in interdicting
crime doesn’t translate into that there’s a problem with
Internal Affairs. I mean if they, you know, if the – and
again, we don’t even know who these community members are, or what class of community members there
are that [56] were complaining, let’s say, of modified ski
masks to protect the police officers’ identities. I mean
there very well could be, and I’m sure there are reasons
why officers would want to protect their identity if
they’re undercover officers.
So, you know, this talks about having a better dialogue and better relationship and discussions with,
and having fruitful discussions with the community on
how to allay their concerns about how undercover police officers are investigating crime. But it doesn’t have
to do with Internal Affairs oversight of the Police Department. And so, you know, I think there’s a disconnect there in what Mr. Melletz is able to bring into
court, what this Court has already ruled and what this
paragraph says. And I think it’s so removed, here we

App. 141
have – you know, again these are unnamed members
of the community, and I think that part of – one of the
goals of this report was to try to, you know, develop better relationships with the community, at least that’s
one of the stated goals. And, you know, getting I guess
more community friendly police tactics is one of those
things. But they don’t even discuss the, you know, they
would eliminate the modified ski masks to protect the
identity of the officers. It doesn’t get into alternatives
as to how they would do that. I assume that that was
the type of the discussion that may have flowed from
this.
But again, incorporating and reading into it Internal [57] Affairs as a – into this paragraph, I think you
have to read into it. You have to be, you know, an attorney who does this work, or a judge who deals with
these cases to read into it. It’s certainly not something
that the jurors should be able to read into unless
there’s some police expert that’s going to come testify
on behalf of Mr. Melletz and say that that is part and
parcel of it, and there just isn’t anybody who’s going to
do that.
THE COURT: Well, he doesn’t need an expert.
I’m going to deny the motion as to these two last sentences on page 12 of this report. It does say that there
is – there are complaints from the community, this is
what it says, there are complaints from the community
that there are some officers unrestrained by effective
oversight and supervision who have engaged in unacceptable behavior and even misconduct. The department must eliminate those ineffective practices that

App. 142
alienate important segments of the community. And it
goes on. I think that the plaintiff should be able to argue that in 2006 there was notice to the police department that there were members of the community
complaining that officers were engaging in unacceptable behavior and even misconduct. And the place
where that’s supposed to be combatted is Internal Affairs.
All right. Let’s take a five minute break, then we’ll
get the remaining plaintiff ’s motions, okay? And we’ll
talk
*

*

*

